      2011 Annual FISMA Executive
      Summary Report




                                                                                   February 2, 2012
                                                                                   Report No. 501
          2011 FISMA Executive Summary Report                                January 13, 2012
Assessment ant dNo.R501
        Repor       eview Conducted by Networking Institute of Technology, Inc.
                                             Page 1
                                 REDACTED PUBLIC VERSION
                                                DRAFT
                                              UNITED STATES
                            SECUF1ITIES AND E XCHANGE COMMISSION
                                        WASHI N GTO ,. , D . C .   2.0~49




                                      MEMORA ND U M
                                              February 2, 2012

           To:           Thomas Bayer, Chief Information Officer, Office of Info rmation
                                                               \-iii1-

                        ~
                             e'h"OIO ¥             ~
           From:            elle      ney,   cling Inspector Genclral, Office of Inspector
                           Gen     I (OIG)

           Su bject:     2011 Annual FISMA Executive Summary Repett. Report 501

           This memorandum transmits the U,S. Securities and Exchange Commission ,
           OIG's fi nal report detailing the results on our 20 11 Federal Information Security
           Management Act of 2002 review

           The fina l report contains 13 recomme ndations whicl•. it fully implemented. should
           strengthen the SEC's controls over information secur,ty. The Office of
           Info rmati on Technology (OIT) concurred with all 01 the report recommendations,
           OIT's written response to the report is included in the appendices,

           Within the next 45 days. please provide the OIG with a written corrective action
           plan that is designed to address the report's agreed.upon recommendations.
           The corrective action plan should include information such as the respons ible
           official/point of contact, timeframes for completing reqlJired actions, and
           milestones identifying how you Will address eijch reccmmendation .

           Should you have any questions regarding this repon. ;:.Iease do not hesitate to
           contact me or Jacqueline W ilson , Assistant Inspectc: General for Audits. at ext.
           1·6326. We appreciate the courtesy and cooperation that you and your staff
           extended to our staff and contractors duri ng this revi8w.

           Attachment

           cc:     James R Burns, Deputy Chief of Staff, Office c f the Chairman
                   luis A. Aguilar, Commissioner
                   Troy A. Paredes. Commissioner
                   Elisse B, Walter, Commissioner
                   Daniet Gallag her, Commissioner
                   Jeff Heslop. Chief Operating Officer, Office of Chief of Operations
                   Todd Scharf. Chief Information Security Officer, Office of Information
                     Technology




2011 Annual FISMA Executive Summary Report                                                   February 2, 2012
Report No. 501
                                       Page ii
                               REDACTED PUBLIC VERSION
                        2011 Annual FISMA
                     Executive Summary Report

                                    Executive Summary
In June 2011, the U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) contracted with Networking
Institute of Technology, Inc. (NIT) to assist with the completion and coordination
of the OIG’s response to Office of Management and Budget (OMB)
Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management Act
(OMB M-11-33). 1 This memorandum provides instructions for meeting the fiscal
year 2011 reporting requirements under the Federal Information Security
Management Act of 2002 (FISMA). 2

NIT began work on this project in June 2011. NIT’s task included reviewing and
evaluating the major components for FISMA 2011 in order to provide its
recommended responses to OMB through Cyberscope (OMB’s online FISMA
reporting system). Further, NIT’s task was to compile an Executive Summary
Report that communicates the Inspector General’s response to the fiscal year
2011 FISMA submission. NIT’s review process included interviewing key SEC
Office of Information Technology (OIT) personnel, and examining policies,
procedures and other related documentation. Based on NIT’s evaluation and
recommendations, the OIG submitted its responses to the fiscal year 2011
FISMA submission. In addition, during the course of the review, NIT identified
the following areas requiring improvement: OIT policies and procedures are
outdated or nonexistent; OIT risk assessment policy does not address risk from a
mission and business process perspective or the SEC’s overall organizational
risk strategy; a tailored set of baseline security controls has not been formally
defined and control sets have not been tailored for the specific systems; OIT has
not conducted configuration compliance scans and has no defined process for
remediating compliance scan results in a timely manner; and multi-factor
authentication for system access has not been linked to the Commission’s
Personal Identity Verification (PIV) Program.

Background. FISMA was enacted in 2002 as Title III of the E-Government Act
of 2002. The purpose of this law is to recognize the importance of information
security to the economic and national security interests of the United States. The
law emphasizes the need for organizations to develop, document, and implement

1
  OMB, Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Privacy Management Act (Sept. 14, 2011),
http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-33.pdf.
2
  Title III, Pub. L. No. 107-347, http://csrc.nist.gov/drivers/documents/FISMA-final.pdf.
2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                       Page iii
                               REDACTED PUBLIC VERSION
organization-wide programs that provide security for the information systems that
support the organization’s operations and assets, as well as information systems
that are provided or managed by other agencies, contractors, or other sources.
FISMA provides the framework for securing the federal government’s information
technology and requires agency program officials, chief information officers
(CIO), privacy officers, and inspectors general to conduct annual reviews of the
agency’s information security and privacy programs and report the results to
OMB. For fiscal year 2011, OMB M-11-33 provides instructions to heads of
executive departments and agencies for meeting the fiscal year 2011 reporting
requirements. OMB uses the information collected from the executive
departments and agencies to:

     (1)     help evaluate agency-specific and government-wide information
             security and privacy program performance,
     (2)     develop its annual security report to Congress,
     (3)     assist in improving and maintaining adequate agency
             performance, and
     (4)     assist in developing the E-Government Scorecard under the
             President’s Management Agenda.

Over the last year, OIT experienced major changes in its leadership, including a
new CIO appointed in October 2010, a major reorganization, changes in senior
OIT staff, and a new contractor brought in to oversee the SEC’s daily OIT
function. 3

Objectives. The overall objective of the 2011 FISMA assessment was to assess
the SEC’s systems and provide the OIG with input to the Commission’s response
to OMB M-11-33. The assessment included a review of the Commission’s
information security posture, as required annually by FISMA. The 2011 FISMA
assessment included the following mandated security requirements:

    •   risk management
    •   configuration management
    •   incident response and reporting
    •   security training
    •   evaluation of agency plan of action and milestones process
    •   remote access management
    •   identity and access management
    •   continuous monitoring management
    •   contingency planning
    •   agency oversight of contractor systems
    •   security capital planning

3
 The contractor is responsible for providing support services, including server and managed network
services, end user computing, service desk, and pre-production services to OIT.
2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                       Page iv
                               REDACTED PUBLIC VERSION
Results. The key findings and results for the 2011 FISMA assessment are as
follows:

    •   OIT has formally documented information technology (IT) policies
        and procedures for the following FISMA controls: risk
        management, configuration management, incident response and
        reporting, security training, plan of action and milestones, remote
        access management, identity and access management, and
        contingency planning. Although OIT has documented the policies
        and procedures for the areas previously identified and the policies
        and procedures are centrally located, the policies and procedures
        are not updated based on the agency-defined frequency of three
        years as noted in OIT’s IT Security Compliance Program Policy 4 or
        based on the individual policy’s or procedure’s defined frequency
        as specified in the policy or procedure. Additionally, OIT does not
        have documented procedures for risk management. Further, NIT
        found that OIT does not have documented policies or procedures
        for continuous monitoring management or for contractor systems.

    •   The SEC has established and is maintaining a risk management
        program that is generally in compliance with the applicable
        regulatory and statutory requirements. However, the current risk
        management policy does not address risk from an organizational
        (overall) perspective or a mission and business process
        perspective. Additionally, a tailored set of baseline security controls
        is not formally defined for each system.

    •   The SEC has established and is maintaining a configuration
        management program that is generally in compliance with FISMA
        requirements, OMB policy, and National Institute of Standards and
        Technology (NIST) guidelines. However, OIT has not updated the
        policies and procedures for configuration management. Further,
        OIT has not updated the baseline for conducting configuration
        compliance scans to ensure that configurations are in compliance
        with defined baseline configurations for major IT devices. Due to
        the lack of an updated defined baseline configuration template, OIT
        has not conducted configuration compliance scans.

    •   OIT has established and is maintaining an incident response and
        reporting program that is capable of detecting, responding to, and
        reporting incidents. Further, the SEC responds to and resolves
        incidents in a timely manner, is capable of tracking and managing
        risks, and is capable of correlating incidents.
4
 Operating Directive, IT Security Compliance Program, Policy Number OD24-04-10 (June 9, 2011), p. 7,
section 5, No.12.
2011 Annual FISMA Executive Summary Report                                           February 2, 2012
Report No. 501
                                      Page v
                              REDACTED PUBLIC VERSION
     •   Security training is provided to SEC personnel, including
         employees, contractors, and other agency users. In addition, the
         Commission has specialized training modules based on IT security
         roles and responsibilities.

     •   OIT is effectively tracking, prioritizing, and remediating weaknesses
         across the various systems, in accordance with the remediation
         dates stated in its Plan of Action and Milestones documentation.

     •   The SEC has established and is maintaining a remote access
         program for authorizing, monitoring, and controlling the following
         methods of remote access:

                                               The Commission’s remote
         access infrastructure is located in a secure demilitarized zone. 9
         Users must first be authenticated for remote access.

     •   OIT has established and is maintaining an identity and access
         management program that is generally consistent with FISMA
         requirements, OMB policy, and applicable NIST guidelines and
         identifies users and network devices. However, the SEC does not
         use multi-factor authentication that is linked to a PIV card, as
         required by Homeland Security Presidential Directive-12 (HSPD-
         12) 10 and in accordance with NIST recommendations.

     •   The SEC has established and is maintaining an enterprise-wide
         continuous monitoring program that assesses the security state of
         information systems to include vulnerability scanning, patch
         management, and ongoing assessment of security controls.

     •   The SEC has established and is maintaining an enterprise-wide
         business continuity/disaster recovery program that is generally
         consistent with the applicable regulatory and statutory
         requirements. Disaster recovery plans are in place and can be
         implemented when necessary. Further, OIT performs annual
         contingency plan testing for major applications.



                                                                        is a
                                                   such as               o provide




 A demilitarized zone is a firewall configuration that adds an extra layer of security for information systems.
10
  Homeland Security Presidential Directive 12: Policy for a Common Identification Standard for Federal
Employees and Contractors (July 1, 2011), http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm.
2011 Annual FISMA Executive Summary Report                                                      February 2, 2012
Report No. 501
                                         Page vi
                                 REDACTED PUBLIC VERSION
   •   The SEC has established and is generally maintaining a program to
       oversee systems operated on its behalf by contractors or other
       entities, including agency systems and services residing in the
       public cloud. Further, OIT consistently ensures that security
       controls of contractor systems are effectively implemented and
       comply with federal and agency guidelines.

   •   A security capital and planning program for information security has
       been established and is maintained at the SEC.

Summary of Recommendations. The report contains the following 13
recommendations:

       (1)   OIT should develop and implement a detailed plan to review
             and update OIT security policies and procedures and to create
             OIT security policies and procedures for areas that lack formal
             policies and procedures.

       (2)   OIT should develop a comprehensive risk management
             strategy in accordance with National Institute of Standards and
             Technology, Guide for Applying the Risk Management
             Framework to Federal Information Systems: A Security Life
             Cycle Approach, that will ensure management of system-
             related security risks is consistent with the Commission’s
             mission/business objectives and overall risk strategy.

       (3)   OIT should update its current risk management policy to
             include language regarding developing a comprehensive
             governance structure and ensure management of system-
             related security risks is consistent with the Commission’s
             mission/business objectives and overall risk strategy.

       (4)   OIT should develop and implement a formal risk management
             procedure that identifies an acceptable process for evaluating
             system risk and is consistent with the Commission’s
             mission/business objectives and overall risk strategy.

       (5)   OIT should develop and implement formal policy that
             addresses tailoring baseline security control sets.

       (6)   OIT should determine whether it should perform the tailoring
             process at the organization level for all information systems
             (either as the required tailored baseline or as the starting point
             for system-specific tailoring), at the individual information


2011 Annual FISMA Executive Summary Report                               February 2, 2012
Report No. 501
                                    Page vii
                            REDACTED PUBLIC VERSION
             system level, or using a combination of organization-level and
             system-specific approaches.

       (7)   OIT should tailor a baseline security controls set (with
             rationale) for applicable systems in accordance with the
             guidance provided by National Institute of Standards and
             Technology, Guide for Applying the Risk Management
             Framework to Federal Information Systems: A Security Life
             Cycle Approach, and National Institute of Standards and
             Technology, Recommended Security Controls for Federal
             Information Systems and Organizations.

       (8)   OIT should review and update its configuration management
             policy to ensure that it complies with the requirements of the
             Federal Information Security Management Act and with the
             guidelines specified in National Institute of Standards and
             Technology, Recommended Security Controls for Federal
             Information Systems and Organizations, as well as with its
             internal requirements.

       (9)   OIT should review and document its current standard baseline
             configuration, including identification of approved deviations
             and exceptions to the standard.

     (10)    OIT should conduct compliance scans of its information
             technology devices, according to the organizationally defined
             frequency in the policy and procedures, to ensure that all
             devices are configured as required by OIT’s configuration
             management policy and procedures.

     (11)    OIT should update its policy and include language indicating
             that deviations from the baseline configurations that are
             identified and documented as a result of the configuration
             compliance scans are properly remediated in a timely manner.

     (12)    OIT should provide a new date to the Office of Management
             and Budget for implementing the technical solution for linking
             multi-factor authentication to the Personal Identity Verification
             (PIV) cards for system authentication.

     (13)    OIT should complete its implementation of the technical
             solution for linking multi-factor authentication to PIV cards for
             system authentication and require use of the PIV cards as a
             second authentication factor by December 2012.


2011 Annual FISMA Executive Summary Report                               February 2, 2012
Report No. 501
                                    Page viii
                            REDACTED PUBLIC VERSION
The full version of this report includes information that the SEC considers to be
sensitive or proprietary. To create this public version of the report, the OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.




2011 Annual FISMA Executive Summary Report                            February 2, 2012
Report No. 501
                                    Page ix
                            REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ................................................................................................iii

Table of Contents .................................................................................................... x

Background and Objectives
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 2

Findings and Recommendations
     Finding 1: OIT’s FISMA Policies and Procedures Are Outdated or
     Nonexistent ........................................................................................................ 3
                   Recommendation 1....................................................................... 5

         Finding 2: OIT’s Risk Management Policy Is Not Addressed From Mission
         and Business Process Perspectives and Overall Commission Risk
         Strategies ........................................................................................................... 5
                         Recommendation 2....................................................................... 8
                         Recommendation 3....................................................................... 8
                         Recommendation 4....................................................................... 9

         Finding 3: OIT Has Not Formally Defined a Tailored Set of Baseline
         Security Controls and Has Not Tailored Control Sets for Specific Systems
         ........................................................................................................................... 9
                              Recommendation 5..................................................................... 12
                              Recommendation 6..................................................................... 12
                              Recommendation 7..................................................................... 12

         Finding 4: OIT Has Not Conducted Configuration Compliance Scans and
         Needs a Defined Process to Address Compliance Scan Results in a
         Timely Manner ................................................................................................. 13
                      Recommendation 8..................................................................... 15
                      Recommendation 9..................................................................... 15
                      Recommendation 10................................................................... 15
                      Recommendation 11................................................................... 16

         Finding 5: Multi-Factor Authentication for System Access Has Not Been
         Linked to the SEC’s Personal Identity Verification Program ............................. 16
                       Recommendation 12................................................................... 19
                       Recommendation 13................................................................... 19

Tables
     Table 1: SEC Systems and Date Accessed. ................................................... 11
     Table 2: OIG Response to Question 1 From OMB Questionnaire................... 33
2011 Annual FISMA Executive Summary Report                                                               February 2, 2012
Report No. 501
                                            Page x
                                    REDACTED PUBLIC VERSION
        Table 3: OIG Response to Question 2 From OMB Questionnaire................... 36
        Table 4: OIG Response to Question 3 From OMB Questionnaire................... 38
        Table 5: OIG Response to Question 4 From OMB Questionnaire................... 40
        Table 6: OIG Response to Question 5 From OMB Questionnaire .................. 42
        Table 7: OIG Response to Question 6 From OMB Questionnaire .................. 44
        Table 8: OIG Response to Question 7 From OMB Questionnaire................... 46
        Table 9: OIG Response to Question 8 From OMB Questionnaire................... 48
        Table 10: OIG Response to Question 9 From OMB Questionnaire................. 50
        Table 11: OIG Response to Question 10 From OMB Questionnaire............... 52
        Table 12: OIG Response to Question 11 From OMB Questionnaire............... 54
        Table 13: OIT Policies and Procedures and Date of Last Update ................... 55

Appendices
    Appendix I: Abbreviations................................................................................ 21
    Appendix II: Scope and Methodology .............................................................. 22
    Appendix III: Criteria and Guidance ................................................................ 25
    Appendix IV: List of Recommendations .......................................................... 27
    Appendix V: OIG’s Response to the OMB Questionnaire ............................... 30
    Appendix VI: OIT Policies and Procedures Past Due for Updates .................. 55
    Appendix VII: Management Comments........................................................... 59
    Appendix VIII: OIG Response to Management’s Comments........................... 64

Figures
     Figure 1: Risk Management Framework ........................................................... 6
     Figure 2: Security Control Selection Process .................................................. 11




2011 Annual FISMA Executive Summary Report                                              February 2, 2012
Report No. 501
                                       Page xi
                               REDACTED PUBLIC VERSION
                    Background and Objectives

Background
In June 2011, the U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) contracted with Networking
Institute of Technology, Inc. (NIT) to assist with completing and coordinating the
OIG’s response to Office of Management and Budget (OMB) Memorandum M-
11-33, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management (OMB M-11-33). 11

The Federal Information Security Management Act of 2002 (FISMA)12 provides
the framework for securing the federal government’s information technology (IT).
FISMA emphasizes the need for organizations to develop, document, and
implement an organization-wide program to provide security for the information
systems that support its operations and assets. All agencies must implement the
requirements of FISMA and report annually to OMB, using OMB-issued reporting
instructions, on the effectiveness of their information security and privacy
programs. OMB uses the information to help evaluate agency-specific and
government-wide information security and privacy program performance, develop
its annual security report to Congress, help improve and maintain adequate
agency performance, and develop the E-Government Scorecard under the
President’s Management Agenda.

OMB M-11-33 provides instructions to heads of executive departments and
agencies for meeting the fiscal year 2011 reporting requirements. It also requires
Inspectors General to independently evaluate and report how their department’s
or agency’s chief information officer (CIO), senior agency official for privacy, and
program officials implemented information security requirements related to risk
management, configuration management, incident response and reporting,
security training, plan of action and milestones, remote access management,
identity and access management, continuous monitoring management,
contingency planning, oversight of contractor systems, and security capital
planning.

NIT began work on this project in June 2011. NIT reviewed and evaluated the
Commission’s implementation of information security requirements and provided
the OIG the results of its assessment and its recommended responses for
submission to OMB through Cyberscope (OMB’s online FISMA reporting system)
and for compiling this report. NIT’s responses are based on information provided
11
   OMB, Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Privacy Management (Sept. 14, 2011),
http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-33.pdf.
12
   Title III, Pub. L. No. 107-347, http://csrc.nist.gov/drivers/documents/FISMA-final.pdf.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 1
                                REDACTED PUBLIC VERSION
by Commission staff and obtained through interviews and review of
documentation. Using NIT’s assessment and recommendations, the OIG has
submitted its responses to the 2011 FISMA questionnaire through Cyberscope to
OMB.

Objectives
The overall objective of the 2011 FISMA assessment was to review the SEC’s
systems and provide the OIG with input to the Commission’s response to OMB
M-11-33. The assessment included a review of the Commission’s information
security posture, as required annually by FISMA. The 2011 FISMA assessment
addressed the following security requirements:

   •   risk management
   •   configuration management
   •   incident response and reporting
   •   security training
   •   evaluation of agency plan of action and milestones process
   •   remote access management
   •   identity and access management
   •   continuous monitoring management
   •   contingency planning
   •   agency oversight of contractor systems
   •   security capital planning




2011 Annual FISMA Executive Summary Report                          February 2, 2012
Report No. 501
                                    Page 2
                            REDACTED PUBLIC VERSION
                  Findings and Recommendations


Finding 1: OIT’s FISMA Policies and
Procedures Are Outdated or Nonexistent
           OIT’s documented FISMA policies and procedures are
           outdated. In addition, OIT lacks documented procedures for
           risk management, continuous monitoring management, and
           information security oversight over systems operated by
           SEC contractors and other entities.

NIT found that OIT has formally documented IT policies and procedures for the
following FISMA control areas: risk management, configuration management,
incident response and reporting, security training, plan of action and milestones
(POA&M), remote access management, identity and access management, and
contingency planning. These policies are centrally accessible via the SEC’s
Intranet site, in OIT’s policy library. 13

NIT found, however, that these policies and procedures have not been reviewed
and updated either within the timeframe specified in the policy or procedure itself
or in accordance with the requirements of Operating Directive
                                   which states that OIT policies and procedures
are to be evaluated every three years. In addition, OIT did not maintain the
policies and procedures consistent with the recommendations of the National
Institute of Standards and Technology (NIST), as set forth in NIST Special
Publication 800-53, Recommended Security Controls for Federal Information
Systems and Organizations (NIST SP 800-53). 15 According to NIST SP 800-53,
an organization should develop, disseminate, and review/update, as frequently
as organization policy specifies, the following:

           a) A formal, documented policy that addresses purpose, scope,
              roles, responsibilities, management commitment, coordination
              among organizational entities, and compliance;




13
     OIT Policy Library,
14
     Operating Directive,

   NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
Organization, (August 2009), http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 3
                                REDACTED PUBLIC VERSION
        b) Formal, documented procedures to facilitate the implementation
           of the [ ] policy and associated [ ] controls. 16

As a consequence, staff may use inconsistent, informal, undocumented policies
and procedures.

Additionally, NIT found that OIT does not have documented procedures for risk
management or documented policies or procedures for continuous monitoring
management or information security oversight of systems operated on the
Commission’s behalf by contractors or other entities (commonly referred to as
contractor systems).

Our review of OIT’s policy library found 45 OIT policies and procedures that were
past due for updating. Of these, 24 are required to be updated annually, as
specified in the policy or procedure, but 2 are eight years overdue for updates, 1
is seven years overdue for update, 7 are five years overdue for updates, 9 are
four years overdue for updates, 4 are three years overdue for updates, and 1 is
two years overdue for an update. The other 21 policies and procedures are
required to be updated every three years in accordance with the IT Security
Compliance Program policy, but 3 are six years overdue for updates, 7 are three
years overdue for updates, 10 are two years overdue for updates, and 1 is one
year overdue for an update. Appendix VI lists the specific OIT policies and
procedures past due for updates.

OIT acknowledges that a significant number of OIT policies and procedures have
not been reviewed and updated in accordance with the organization-defined
frequency or the frequency specified in the individual policy or procedure. OIT
has recently purchased a software tool, Archer, to help it manage and develop
OIT policies and procedures. Archer centrally manages policies and procedures,
maps them to objectives, and uses built-in alert notifications for reviewing policies
and procedures.

Based on interviews with OIT staff and a review of the policies and procedures,
NIT found that there is a lack of oversight to ensure that policy and procedure
reviews and updates are conducted in accordance with the organization-defined
frequencies.

Because OIT policies and procedures are not updated with the required
frequency, OIT staff has not received adequate guidance to implement current
NIST guidance and fulfill management’s expectations for implementing controls


16
   NIST SP 800-53, Rev. 3, p. F-92, Risk Assessment, p. F-38, Configuration Management, p. F-61, Incident
Response, p. F-21, Awareness and Training, p. F-32, Security Assessment and Authorization, p. F-3,
Access Control, p. F-47, Contingency Planning, p. F-54, Identification and Authentication,
http//csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 4
                                REDACTED PUBLIC VERSION
throughout the Commission. In addition, OIT staff may apply inconsistent,
informal, undocumented policies and procedures within the IT environment.

          Recommendation 1:

          The Office of Information Technology (OIT) should develop and implement
          a detailed plan to review and update OIT security policies and procedures
          and to create OIT security policies and procedures for areas that lack
          formal policy and procedures.

          Management Comments. OIT concurred with this recommendation.
          See Appendix VII for management’s full comments.

          OIG Analysis. We are pleased that OIT concurred with this
          recommendation.


Finding 2: OIT’s Risk Management Policy Is
Not Addressed From Mission and Business
Process Perspectives or the Commission’s
Overall Strategy
          OIT’s risk management policy does not adhere to the
          requirements for a comprehensive governance structure and
          organizational overall risk management strategy. Further, it
          does not address risk from a mission and business process
          perspective, as described in NIST guidelines. As a result of
          not updating its risk management policy, OIT has not
          developed a comprehensive strategy to manage risk at the
          organizational or the mission and business process levels.

NIT found that OIT has a formally documented risk management policy—
                                                                       17
Implementing Instruction (II)                                            —which is
accessible through the SEC’s Intranet site in the OIT policy library and includes
the roles and responsibilities of participants. NIT found that the policy has not
been updated since 2005 and that it does not include formal risk management
procedures that identify an acceptable process for evaluating risk at the
organization and the mission and business process levels, as described in NIST
Special Publication 800-37, Guide for Applying the Risk Management Framework
to Federal Information Systems: A Security Life Cycle Approach (NIST SP 800-
37), released in February 2010. Specifically, the OIT risk management policy

17
     II

2011 Annual FISMA Executive Summary Report                               February 2, 2012
Report No. 501
                                    Page 5
                            REDACTED PUBLIC VERSION
does not include the required comprehensive governance structure and
organization-wide risk management strategy.

NIST SP 800-37 states the following:

          The guidelines have been developed to ensure that
          managing information system-related security risks is
          consistent with the organization’s mission/business
          objectives and overall risk strategy established by the senior
          leadership through the risk executive (function). 18

Additionally, OIT’s risk management policy does not use the three-tiered
approach to risk management, referred to as the Risk Management Framework
(RMF), as illustrated in figure 1, below. 19

     Figure 1: Risk Management Framework




     Source: NIST SP 800-37.

Tier 1 addresses risk from an organizational perspective through development of
a comprehensive governance structure and organization-wide risk management
strategy. Tier 2 addresses risk from a mission and business process
perspective, and its activities are closely associated with enterprise architecture
and are guided by Tier 1 risk decisions. Tier 3 addresses risk from an
information system perspective and is guided by Tier 1 and Tier 2 risk

18
   NIST Special Publication 800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal
Information Systems: A Security Life Cycle Approach (February 2010), p. 2, section 1.1, Purpose and
Applicability, http://csrc.nist.gov/publications/nistpubs/800-37-rev1/sp800-37-rev1-final.pdf.
19
   NIST SP 800-37, Rev. 1, p. 5, section 2.1, Integrated Organization-Wide Risk Management,
http://csrc.nist.gov/publications/nistpubs/800-37-rev1/sp800-37-rev1-final.pdf.
2011 Annual FISMA Executive Summary Report                                                     February 2, 2012
Report No. 501
                                         Page 6
                                 REDACTED PUBLIC VERSION
decisions. 20 Currently, OIT is only addressing risk at the information system
level.

Based on interviews with staff in the SEC’s Office of Risk Management (ORM)
and NIT’s review of the OIT risk management policy, NIT has concluded that
ORM is responsible for establishing and implementing standards to manage
integrated risk management and operational readiness across the organization.
ORM has developed a five-level maturity model to define the roadmap to
advanced operational risk management within the SEC. The five levels are
Functional Level 1, Coordinated Level 2, Standardized Level 3, Integrated Level
4, and Optimized Level 5.

Functional Level 1 is embedded in functional business units and divisions, relies
on the initiative of key people, and focuses on financial and hazard risks. Risk
management is not well understood at this level. At Coordinated Level 2,
functional departments coordinate on high-profile risk, and risk management is
driven by external compliance requirements. Standardized Level 3 focuses on
management processes and controls. Risk processes are standardized in an
enterprise framework communicated to staff. Integrated Level 4 includes a
comprehensive risk agenda. At Optimized Level 5, formal ORM processes are
embedded in strategic planning and risk management. 21

ORM is currently working with OIT on Coordinated Level 2 of the roadmap, which
incorporates the organizational level, mission and business level, and information
systems level. Coordinated Level 2 addresses the following:

     •   Functional departments to coordinate on high-profile risk
     •   Formally documented controls
     •   Risk management driven by external compliance requirements
     •   Policies and procedures established by business units

Based on interviews with OIT, NIT found that OIT has begun working with ORM
to develop a comprehensive risk management strategy in accordance with NIST
SP 800-37, Rev 1. 22 OIT is currently conducting risk assessments at the
information system level in compliance with the archived version of NIST 800-37,
Guide for the Security Certification and Accreditation of Federal Information
Systems, 23 and is also in compliance with NIST Special Publication 800-30, Risk
Management Guide for Information Technology Systems, released in July
20
    NIST SP 800-37, Rev. 1, p. 5, section 2.1, Integrated Organization-Wide Risk Management,
http://csrc.nist.gov/publications/nistpubs/800-37-rev1/sp800-37-rev1-final.pdf.
21
    The definitions for the five risk levels are found in the SEC Office of Risk Management Office Stand Up
file, dated September 8, 2011, p. 3.
22
    NIST SP 800-37, Rev 1, Guide for Applying the Risk Management Framework to Federal Information
Systems: A Security Life Cycle Approach (February 2010), http://csrc.nist.gov/publications/nistpubs/800-37-
rev1/sp800-37-rev1-final.pdf.
23
    NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems
(May 2004), http://csrc.nist.gov/publications/PubsSPArch.html.
2011 Annual FISMA Executive Summary Report                                                    February 2, 2012
Report No. 501
                                         Page 7
                                 REDACTED PUBLIC VERSION
2002. 24 NIT did not compare OIG’s risk management strategy against NIST SP
800-30, Rev. 1, Draft Guide for Conducting Risk Assessments, 25 because this
NIST document has not been issued in final form.

Because it has not updated its risk assessment policy to address the RMF
specified in NIST SP 800-37, the SEC has not developed a comprehensive
strategy to manage risk at the organization level, the mission and business level,
and the information system level. OIT is currently assessing risk only at the
information system level and is not taking into consideration the impact of the
cumulative information system risks that can be rolled up to the mission and
business level and the organization level.

        Recommendation 2:

        The Office of Information Technology should develop a comprehensive
        risk management strategy in accordance with National Institute of
        Standards and Technology, Guide for Applying the Risk Management
        Framework to Federal Information Systems: A Security Life Cycle
        Approach, that will ensure management of system-related security risks is
        consistent with the Commission’s mission/business objectives and overall
        risk strategy.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 3:

        The Office of Information Technology should update its risk management
        policy to include language regarding developing a comprehensive
        governance structure and ensure management of system-related security
        risks is consistent with the Commission’s mission/business objectives and
        overall risk strategy.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

24
   NIST SP 800-30, Risk Management Guide for Information Technology Systems (July 2002),
http://csrc.nist.gov/publications/nistpubs/800-30/sp800-30.pdf.
25
   NIST SP 800-30, Rev 1, Draft Guide for Conducting Risk Assessments (Sept. 19, 2011),
http://csrc.nist.gov/publications/PubsDrafts.html#SP-800-30-Rev.%201.
2011 Annual FISMA Executive Summary Report                                              February 2, 2012
Report No. 501
                                       Page 8
                               REDACTED PUBLIC VERSION
        Recommendation 4:

        The Office of Information Technology should develop and implement a
        formal risk management procedure that identifies an acceptable process
        for evaluating system risk and is consistent with the Commission’s
        mission/business objectives and overall risk strategy.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 3: OIT Has Not Formally Defined a
Tailored Set of Baseline Security Controls
and Has Not Tailored Control Sets for Specific
Systems
        OIT has not developed formal policy or procedures that
        provide instructions for tailoring baseline security controls in
        accordance with NIST requirements. Further, OIT has not
        tailored its baseline security controls for each applicable
        SEC system that requires such controls.

NIT found that OIT has developed a System Security Plan (SSP) for each SEC
critical system in accordance with NIST Special Publication 800-18, Guide for
Developing Security Plans for Federal Information Systems (NIST SP 800-18). 26
The SSP is a “[f]ormal document that provides an overview of the security
requirements for the information system and describes the security controls in
place or planned for meeting those requirements.” 27 OIT identifies a generic set
of baseline security controls in each SSP, based on the security categorization of
the system, but has not taken any action to tailor the baseline security controls
set consistent with the guidance in NIST SP 800-37.

NIST SP 800-37 states the following:

        The security control selection process includes as appropriate:



26
   NIST SP 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information Systems,
http://csrc.nist.gov/publications/nistpubs/800-18-Rev1/sp800-18-Rev1-final.pdf.
27
   NIST SP 800-18, p. 39, http://csrc.nist.gov/publications/nistpubs/800-18-Rev1/sp800-18-Rev1-final.pdf.
2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                       Page 9
                               REDACTED PUBLIC VERSION
         (i) choosing a set of baseline security controls; (ii) tailoring the
         baseline security controls by applying scoping, parameterization,
         and compensating control guidance; (iii) supplementing the tailored
         baseline security controls, if necessary, with additional controls …;
         and (iv) specifying minimum assurance requirements, as
         appropriate. Organizations document in the security plan, the
         decisions (e.g., tailoring, supplementation, etc.) taken during the
         security control selection process, providing a sound rationale for
         those decisions. 28

OIT has accomplished only the first of these four items. Without a formal tailored
baseline security controls set, the security requirements for each system could
be either understated or overstated and critical controls may not be identified.

NIT found that the baseline security controls for each system are evaluated as
part of the SEC Security Test and Evaluation (ST&E). The ST&E is the security
document that contains the assessment methods and the assessment results for
the required security controls for each system. 29

Through interviews with OIT staff and a review of system documentation, NIT
found that OIT lacks formal policy and procedures to provide appropriate
guidance to SEC IT security staff to ensure that the baseline security controls set
is properly tailored in accordance with the requirements of NIST SP 800-53. 30
Figure 2, below, summarizes the process recommended by NIST for selecting
security controls, including tailoring of the initial security control baseline and any
additional modifications required based on an organizational assessment of
risk. 31




28
   NIST SP 800-37, Rev. 1, p. 25, http://csrc.nist.gov/publications/nistpubs/800-37-rev1/sp800-37-rev1-
final.pdf.
29
   See NIST SP 800-53A, Rev. 1, Guide for Assessing the Security Controls in Federal Information Systems
and Organizations (June 2010), p. ix (NIST SP 800-53A), http://csrc.nist.gov/publications/nistpubs/800-53A-
rev1/sp800-53A-rev1-final.pdf.
30
   NIST SP 800-53, Rev. 3, p. 25, fig. 3.2, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
31
   NIST SP 800-53, Rev. 3, p. 25, fig. 3.2, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                     February 2, 2012
Report No. 501
                                         Page 10
                                 REDACTED PUBLIC VERSION
     Figure 2: Security Control Selection Process




     Source: NIST SP 800-53.

NIT also found that OIT had not developed or defined a tailored set of baseline
security controls in the SSP or other security documents for the   systems that
it examined. The table 1 SEC Systems and Date Accessed lists the systems and
the date that NIT accessed them.

                   Table 1: SEC Systems and Date Accessed

                                             Date Accessed on the
                          SEC System
                                               SEC Intranet Site
                                             August 15, 2011
                                             August 29, 2011
                                             September 7, 2011
                                             September 7, 2011
                                             August 29, 2011
                                             September 7, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                                             September 8, 2011
                   Source: NIT Generated.




2011 Annual FISMA Executive Summary Report                          February 2, 2012
Report No. 501
                                       Page 11
                               REDACTED PUBLIC VERSION
Further, NIT found that OIT mistakenly interpreted NIST SP 800-53 as requiring
no tailoring of the baseline security controls set beyond selection of the
appropriate set based on the system’s security categorization. NIT’s review of
the Certification and Accreditation (C&A) packages, including the       systems’
SSP and the ST&E documents, provided no indication that the baseline security
controls set was tailored in accordance with the guidance in NIST SP 800-53.

OIT’s use of a generic controls set based only on security categorization without
additional tailoring may result in its understating or overstating the security
requirements for systems. Additionally, without tailoring, OIT may fail to identify
critical controls, resulting in risks to the information system, mission and business
processes, and the organization.

       Recommendation 5:

       The Office of Information Technology should develop and implement
       formal policy that addresses tailoring baseline security controls sets.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 6:

       The Office of Information Technology should determine whether it should
       perform the tailoring process at the organization level for all information
       systems (either as the required tailored baseline or as the starting point for
       system-specific tailoring), at the individual information system level, or by
       using a combination of organization-level and system-specific approaches.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 7:

       The Office of Information Technology should tailor a baseline security
       controls set (with rationale) for applicable systems in accordance with the
       guidance in National Institute of Standards and Technology, Guide for
       Applying the Risk Management Framework to Federal Information
       Systems: A Security Life Cycle Approach, and National Institute of

2011 Annual FISMA Executive Summary Report                             February 2, 2012
Report No. 501
                                    Page 12
                            REDACTED PUBLIC VERSION
         Standards and Technology, Recommended Security Controls for Federal
         Information Systems and Organizations.

         Management Comments. OIT concurred with this recommendation.
         See Appendix VII for management’s full comments.

         OIG Analysis. We are pleased that OIT concurred with this
         recommendation.


Finding 4: OIT Has Not Conducted
Configuration Compliance Scans and Needs a
Defined Process to Address Compliance Scan
Results in a Timely Manner
         OIT’s baseline configurations are outdated and are
         inconsistent with NIST guidance. OIT’s current configuration
         management policies and procedures do not address the
         timely processing and remediation of deviations or
         exceptions from the defined configuration settings. Further,
         OIT has not conducted configuration compliance scans.

NIT found that the OIT has documented policies and procedures for configuration
management 32 and a defined, standard baseline configuration for its major IT
devices, including
        . 35 However, these policies and procedures and the standard baseline
configuration are outdated by three or more years and are therefore inconsistent
with current FISMA requirements, and NIST SP 800-53. 36

The current baseline configurations are inconsistent with NIST guidance since
they do not represent a “documented, up-to-date specification to which the
information system is built.” According to NIST SP 800-53, “Maintaining the
baseline configuration involves creating new baselines as the information system
changes over time.” 37 In addition, based on interviews with OIT and examination


32
    The policies and procedures reviewed for a
33
   Windows® Server is a brand name for a group of server operating systems released by Microsoft®
Corporation.
34
                            are                        that                                       Microsoft®
Corporation.
35
                           are the                       free and open
 36
    NIST SP 800-53, Rev. 3, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
37
    NIST SP 800-53, Rev. 3, p. F-38, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                   February 2, 2012
Report No. 501
                                        Page 13
                                REDACTED PUBLIC VERSION
                                                                       38
of OIT Implementing Instruction                                           NIT
found that OIT’s current configuration management policies and procedures do
not address the timely processing and remediation of deviations or exceptions
from the defined configuration settings.

As a result, OIT may be unaware of devices that do not meet its minimum
configuration requirements and it may therefore be impossible for OIT to
determine if the devices have been configured in accordance with approved
baseline configuration. Improperly configured devices may present increased
security related risks to the systems and the organization.

NIT also found that OIT has failed to conduct configuration compliance scans to
ensure that current configurations comply with their defined, documented
baseline configuration. OIT lacked an automated tool capable of conducting
automated configuration scans, and it was not feasible for OIT to conduct manual
compliance checks for its large population of devices. OIT has recently acquired
an automated compliance tool, Qualys, which is capable of identifying and
documenting deviations from the defined, standard baseline configuration. NIT
also found that OIT has not identified, documented, and approved deviations or
exceptions from its defined configuration settings.

With respect to configuration management, NIST SP 800-53 recommends that
organizations develop, document, and maintain under configuration control “a
current baseline of the information system.” NIST SP 800-53 also states the
following with respect to configuration settings:

        The organization:

        a. Establishes and documents mandatory configuration settings for
           information technology products employed within the
           information system using [Assignment: organization-defined
           security configuration checklists] that reflect the most restrictive
           mode consistent with operational requirements;
        b. Implements the configuration settings;
        c. Identifies, documents, and approves exceptions from the
           mandatory configuration settings for individual components
           within the information system based on explicit operational
           requirements; and
        d. Monitors and controls changes to the configuration settings in
           accordance with organizational policies and procedures. 39


38
  OIT Implementing Instruction                                                        ). The implementing
instruction is

   NIST SP 800-53, Rev. 3, p. F-42, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                  February 2, 2012
Report No. 501
                                         Page 14
                                 REDACTED PUBLIC VERSION
Because OIT lacks up-to-date policies and procedures, its current configuration
may not comply with current FISMA and NIST best practices. Also, without
identifying, documenting, and approving deviations, OIT may inconsistently apply
configurations to its IT devices, which could lead to weaknesses in its
environment. In addition, without an automated tool, OIT may continue to fail to
conduct compliance scans for its major IT devices, potentially leaving OIT
unaware of devices that do not meet minimum configuration requirements. Thus,
it may be impossible to determine if the devices have been properly configured in
accordance with the approved baseline configurations. Improperly configured
devices may present increased security related risks to the systems and the
organization.

       Recommendation 8:

       The Office of Information Technology should review and update its
       configuration management policy and ensure that it complies with the
       Federal Information Security Management Act requirements, the
       guidelines specified in National Institute of Standards and Technology,
       Recommended Security Controls for Federal Information Systems and
       Organizations, and its internal requirements.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 9:

       The Office of Information Technology should review and document its
       current standard baseline configuration, including identification of
       approved deviations and exceptions to the standard.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 10:

       The Office of Information Technology should conduct compliance scans of
       its information technology devices, according to the organizationally
       defined frequency in the policy and procedures, to ensure that all devices


2011 Annual FISMA Executive Summary Report                           February 2, 2012
Report No. 501
                                    Page 15
                            REDACTED PUBLIC VERSION
        are configured as required by the Office of Information Technology’s
        configuration management policy and procedures.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 11:

        The Office of Information Technology should update its policy and include
        language indicating that deviations from baseline configurations that are
        identified and documented as a result of the configuration compliance
        scans are properly remediated in a timely manner.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 5: Multi-Factor Authentication for System
Access Has Not Been Linked to the SEC’s
Personal Identity Verification Program
        OIT still has not implemented the technical solution for
        linking the Personal Identity Verification (PIV) cards to multi-
        factor authentication. As a result, the SEC continues to be
        noncompliant with Homeland Security Presidential Directive-
        12 (HSPD-12), 40 requirements. This noncompliance puts
        the SEC at a higher risk for unauthorized access to its
        information systems.

Multi-factor authentication for system access is the process for establishing
confidence of authenticity by using two or more factors to achieve authentication.
The Commission is required to have a minimum of two of the three factors for
multi-factor authentication. The three factors of multi-factor authentication
include:


40
  HSPD-12: Policy for a Common Identification Standard for Federal Employees and Contractors, (Aug. 27,
2004), http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm.
2011 Annual FISMA Executive Summary Report                                            February 2, 2012
Report No. 501
                                      Page 16
                              REDACTED PUBLIC VERSION
          (1) something one knows such as a password or personal
              identification number (PIN),
          (2) something one has such as a PIV card, 41 and
          (3) something one is such as a physical security token, or a
              biometric 42 feature such as a fingerprint or retina scan.

Former President George W. Bush signed HSPD-12 in August 2004. It required
federal agencies to have programs in place to ensure that identification issued by
each agency to federal employees and contractors meets a common standard.
HSPD-12 directed the Secretary of Commerce to promulgate a standard for
secure and reliable forms of identification within 6 months after the date of the
directive. 43 The standard, Federal Information Processing Standards Publication
201-1, Personal Identity Verification (PIV) of Federal Employees and Contractors
(FIPS 201-1), was issued by NIST on February 25, 2005, and revised in March
2006. 44 HSPD-12 also included the following deadlines:

     •   No more than four months after promulgation of the standard,
         heads of executive departments and agencies were to have a
         program in place to ensure that identification issued to employees
         and contractors met the standard.

     •   No more than eight months after promulgation of the standard,
         heads of executive departments and agencies were to require, to
         the maximum extent practicable, that employees and contractors
         use identification that met the standard to gain physical access to
         federally controlled facilities and logical access to federally
         controlled information systems. 45

According to the OIG’s report entitled, The SEC’s Implementation of and
Compliance with HSPD-12, Report No. 481, issued in March 2011, the SEC had
missed virtually all the HSPD-12 deadlines. 46 We found that the SEC had not, to
the maximum extent practical, required the use of identification by federal

41
   A PIV card is defined as “[a] physical artifact (e.g., identity card, ‘smart card’) issued to an individual that
contains stored identity credentials (e.g., photograph, cryptographic keys, digitized fingerprint
representation) so that the claimed identity of the cardholder can be verified against the stored credentials
by another person (human readable and verifiable) or an automated process (computer readable and
verifiable).” Federal Information Processing Standards Publication (FIPS Pub.) 201-1, Personal Identity
Verification (PIV) of Federal Employees and Contractors, p. 73, Appendix F,
http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
42
   Biometric is defined as “[a] measurable, physical characteristic or personal behavioral trait used to
recognize the identity, or verify the claimed identity, of an Applicant. Facial images, fingerprints, and iris scan
samples are all examples of biometrics.” FIPS Pub. 201-1, p. 70,
http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
43
   HSPD-12, para. 2, http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm.
44
   FIPS 201-1, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
45
   HSPD-12, para. 4, http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm.
46
   OIG, The SEC’s Implementation of and Compliance with Homeland Security Presidential Directive 12,
Report No. 481 (Mar. 31, 2011), p. 3, http://www.sec-oig.gov/Reports/AuditsInspections/2011/481.pdf.
2011 Annual FISMA Executive Summary Report                                                         February 2, 2012
Report No. 501
                                          Page 17
                                  REDACTED PUBLIC VERSION
employees and contractors that met the standard in gaining physical access to
federally controlled facilities and logical access to federally controlled information
systems because the SEC had not completed background investigations for all
employees who had more than 15 years of federal service in compliance with the
prescribed deadline. As a result, in the OIG Report No. 481, we recommended
to the SEC’s Office of Human Resources immediately, but no later than 90 days
after the issuance of the report, initiate background investigations for all current
employees who did not have successfully adjudicated investigations on record.

While the Office of Human Resources concurred with the recommendation and
has since initiated background investigations, as of this date, they have not
completed background investigations for all employees and have not provided
the OIG with a date as to when that the background investigations will be
completed. It should be noted that a background investigation must be
completed prior to receipt of a PIV badge.

At that time of the March 2011 report, the Office of Human Resources was
responsible for oversight of the background investigations but has since
transferred this responsibility to the Office of Security Services (OSS), Personnel
Security Branch.

OSS’s Physical Security Branch is responsible for enrolling PIV cards into its
physical access control system and providing temporary SEC-issued badges
while employees or contractors are awaiting receipt of their PIV cards. Physical
Security has initiated the process for issuing PIV cards to all eligible employees
and contractors. OIT is responsible for overseeing implementation of
technological solutions for the use of PIV cards for multi-factor authentication for
access to SEC information systems.

According to information obtained in interviews with OIT staff and a review of
SEC information systems, OIT—more than six years after NIST’s promulgation of
FIPS 201-1—is still in the process of developing a technical solution for
implementing PIV cards as a second authentication factor for accessing SEC
information systems. According to the OIG’s 2010 Annual FISMA Executive
Summary Report, OIT concurred with the OIG’s recommendation that OIT
complete the logical access integration of the PIV card no later than December
2011, as reported to OMB in the SEC’s HSPD-12 Implementation Status Report
on December 31, 2010. 47 OIT also concurred with the following recommendation
in The SEC’s Implementation of and Compliance with Homeland Security
Presidential Directive 12:




47
  OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011), http://www.sec-
oig.gov/Reports/AuditsInspections/2011/489.pdf.
2011 Annual FISMA Executive Summary Report                                           February 2, 2012
Report No. 501
                                      Page 18
                              REDACTED PUBLIC VERSION
        Recommendation 16: The Office of the Executive Director
        should develop and implement a policy requiring the
        Personal Identity Verification badge to be used as a common
        and primary means of authentication for physical and logical
        access. 48

Although OIT has concurred with the recommendations made in both reports,
OIT has not completed the requirements to use the PIV card for multi-factor
authentication for accessing SEC information systems.

As of the date of this report, OIT has not advised the OIG of a date for
completing the implementation of PIV cards as a required second authentication
factor for accessing SEC information systems.

Because it has not implemented multi-factor authentication that is linked to the
PIV card program, the SEC is not in compliance with the requirements of HSPD-
12 49 or with NIST SP 800-53, Identification and Authentication, IA-2. 50 Failure to
implement multi-factor authentication may place the Commission at a higher risk
for unauthorized access to its information systems.

        Recommendation 12:

        The Office of Information Technology should provide a new date to the
        Office of Management and Budget for implementing the technical solution
        for linking multifactor authentication to Personal Identity Verification cards
        for system authentication.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VII for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 13:

        The Office of Information Technology should complete its implementation
        of the technical solution for linking multi-factor authentication to Personal
        Identity Verification (PIV) cards for system authentication and require use
        of the PIV cards as a second authentication factor by December 2012.



48
   OIG, The SEC’s Implementation of and Compliance with Homeland Security Presidential Directive 12, p.
31, http://www.sec-oig.gov/Reports/AuditsInspections/2011/481.pdf.
49
   HSPD-12, para. 4, http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm.
50
   NIST SP 800-53, Rev. 3, pp. F-54 and F-55, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-
53-rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                  February 2, 2012
Report No. 501
                                        Page 19
                                REDACTED PUBLIC VERSION
       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.




2011 Annual FISMA Executive Summary Report                         February 2, 2012
Report No. 501
                                    Page 20
                            REDACTED PUBLIC VERSION
                                                                        Appendix I


                                 Abbreviations

    BIA                          business impact analysis
    C&A                          Certification and Accreditation
    CIO                          Chief Information Officer
    CM                           Configuration Management
    FDCC                         Federal Desktop Core Configuration
    FIPS                         Federal Information Processing Standard
    FISMA                        Federal Information Security Management Act
    HSPD-12                      Homeland Security Presidential Directive 12
    IDS                          Intrusion Detection System
    II                           Implementing Instruction
    IPS                          Intrusion Prevention System
    ISA                          Interconnection Security Agreement
    IT                           information technology
    LAN                          local area network
    MOU                          memorandum of understanding
    NIST                         National Institute of Standards and Technology
    OSS                          Office of Security Services
    OIG                          Office of Inspector General
    OIT                          Office of Information Technology
    OMB                          Office of Management and Budget
    PIN                          personal identification number
    PIV                          Personal Identity Verification
    POAM                         Plan of Actions and Milestones
    SEC or Commission            Securities and Exchange Commission
    SSP                          System Security Plan
    ST&E                         Security Test and Evaluation
    US-CERT                      United States Computer Emergency Readiness
                                 Team




2011 Annual FISMA Executive Summary Report                             February 2, 2012
Report No. 501
                                    Page 21
                            REDACTED PUBLIC VERSION
                                                                                        Appendix II


                          Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive or proprietary. To create this public version of the report, the OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.

Scope. NIT conducted this review from June 2011 to October 2011. The scope
of the review consisted of the following areas specified in OMB’s fiscal year 2011
FISMA reporting instructions:

     •   risk management
     •   configuration management
     •   incident response and reporting
     •   security training
     •   evaluation of agency plan of action and milestones process
     •   remote access management
     •   identity and access management
     •   continuous monitoring management
     •   contingency planning
     •   agency oversight of contractor systems
     •   security capital planning 51

We conducted our review at the SEC’s Operations Center in Alexandria, VA and
headquarters site in Washington, D.C.

Methodology. FISMA requires that federal agencies have an annual
independent evaluation of their information security program and practices
performed. The evaluation is to be conducted by the agency’s inspector general
or by an independent external auditor. 52 The overall objective of the 2011 FISMA
assessment was to assess the SEC’s systems and provide the OIG with input to
the Commission’s response to OMB M-11-33. To meet this object NIT
conducted the 2011 review of the SEC’s information security program based on
guidance issued by OMB and NIST. NIT completed all data collection
instruments required for 2011 FISMA reporting, performed the necessary
evaluation procedures to answer questions to be published by OMB in its
reporting guidance, and compiled this Executive Summary Report for the SEC
OIG.


51
   OMB M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act and
Privacy Management Act, http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-33.pdf.
52
   Pub. L. No. 107-347, title III, § 3545(a), (b).
2011 Annual FISMA Executive Summary Report                                              February 2, 2012
Report No. 501
                                       Page 22
                               REDACTED PUBLIC VERSION
                                                                                     Appendix II


To complete the OIG’s portion of the annual FISMA questionnaire, NIT
interviewed key OIT personnel and examined policies, procedures, and other
related documentation. The key personnel included system owners, OIT
representatives, and OIG stakeholders. Follow-up interviews were conducted to
gather additional evidence. NIT reviewed relevant documentation (such as
policies, procedures, and roles and responsibilities) to address the evaluation
objective. Our review of policies and procedures also included discussions with
SEC officials to discuss and confirm our findings. NIT’s review covered the 11
areas identified in the scope.

NIT IT security professionals reviewed OIT’s C&A packages, including POA&M,
SSP, Risk Assessments, ST&E, C&A memoranda, and applicable policies and
procedures, to determine OIT’s compliance with OMB, FISMA, and NIST
guidelines. NIT also reviewed other documentation relating to the scope of the
fiscal year 2011 annual FISMA assessment. Our analysis was based on
information provided from various sources, interviews with key SEC OIT
personnel, prior audit coverage, support documentation, and artifacts provided to
NIT.

Management Controls. NIT did not assess OIT’s management control structure
or its internal controls because it did not pertain to the objectives of this review.
NIT reviewed existing controls at the Commission considered specific to the 2011
FISMA OIG questionnaire. To thoroughly understand OIT’s management
controls pertaining to its policies and procedures and methods of operation, NIT
relied on information requested from and supplied by OIT staff members and
information from NIT interviews with various OIT personnel.

Use of Computer-Processed Data. NIT did not assess the reliability of OIT’s
computers because it did not pertain to our objectives for this review. Further,
NIT did not perform any tests on the general or application controls over OIT’s
automated systems because such tests were not within the scope of our work.
The information that was retrieved from these systems as well as the requested
documentation provided to us, was sufficient, reliable, and adequate to use in
meeting our stated objectives.

Prior OIG Report. NIT reviewed the 2010 FISMA Executive Summary, which
has eight recommendations. 53 OIT has implemented and closed seven of these
recommendations, but one remains open. That recommendation called for OIT
to complete the logical access integration of the HSPD-12 card no later than
December 2011, as reported to the Office of Management and Budget on
December 31, 2010. 54 NIT found that OIT is still in the process of addressing
this recommendation.

53
   OIG, 2010 FISMA Executive Summary, Report No. 489 (Mar. 3, 2011), http://www.sec-
oig.gov/Reports/AuditsInspections/2011/489.pdf.
54
   See 2010 FISMA Executive Summary, page 9.
2011 Annual FISMA Executive Summary Report                                           February 2, 2012
Report No. 501
                                      Page 23
                              REDACTED PUBLIC VERSION
                                                                    Appendix II


Judgmental Sampling. As required by FISMA, NIT conducted a limited review
of the Commission’s information security posture. The review consisted of NIT’s
reviewing the security assessment packages for a representative sample of     of
approximately    SEC systems that were agreed upon between the SEC and
NIT. 55




55
     The   systems selected were the




2011 Annual FISMA Executive Summary Report                         February 2, 2012
Report No. 501
                                        Page 24
                                REDACTED PUBLIC VERSION
                                                                     Appendix III


                          Criteria and Guidance

Federal Information Security Management Act of 2002, Title III, Pub. L. No.
107-347. Requires federal agencies to develop, document, and implement an
agency-wide program providing security for the information and information
systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source.

OMB Memorandum 11-33, FY 2011 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management.
Provides instructions to agencies for meeting fiscal year 2011 reporting
requirements under FISMA.

NIST Special Publication 800-18, Revision 1, Guide for Developing Security
Plans for Federal Information Systems. Provides guidance for improving
protection of information system resources.
.
NIST Special Publication 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations. Provides
guidance related to the steps in the RMF that address security control section.

NIST Special Publication 800-53A, Revision 1, Guide for Assessing the
Security Controls in Federal Information Systems and Organizations
(companion guideline to NIST SP 800-53). Covers the security control
assessment and continuous monitoring steps in the RMF and provides guidance
on the security assessment process.

NIST Special Publication 800-37, Revision 1, Guide for Applying the Risk
Management Framework to Federal Information Systems: A Security Life
Cycle Approach. Provides guidance for applying the RMF to federal information
systems.

Homeland Security Presidential Directive-12 (HSPD-12), Policies for a
Common Identification Standard for Federal Employees and Contractors.
Provides guidance and details for implementing a common identification standard
throughout federal agencies.

Federal Information Processing Standard Publication 199 (FIPS 199),
Standards for Security Categorization of Federal Information and
Information Systems. Provides guidance on the proper categorization of an
information system based on the security level of the information contained in the
system.


2011 Annual FISMA Executive Summary Report                           February 2, 2012
Report No. 501
                                    Page 25
                            REDACTED PUBLIC VERSION
                                                                   Appendix III


Federal Information Processing Standard Publication 200 (FIPS 200),
Minimum Security Requirements for Federal Information and Information
Systems. Outlines the minimum security requirements for the security of federal
information system.

Federal Information Processing Standard Publication 201-1 (FIPS 201-1),
Personal Identity Verification (PIV) of Federal Employees and Contractors.
Outlines the HSPD-12 requirements.




2011 Annual FISMA Executive Summary Report                        February 2, 2012
Report No. 501
                                    Page 26
                            REDACTED PUBLIC VERSION
                                                                     Appendix IV


                       List of Recommendations

Recommendation 1:

The Office of Information Technology (OIT) should develop and implement a
detailed plan to review and update OIT security policies and procedures and to
create OIT security policies and procedures for areas that lack formal policy and
procedures.

Recommendation 2:

The Office of Information Technology should develop a comprehensive risk
management strategy in accordance with National Institute of Standards and
Technology, Guide for Applying the Risk Management Framework to Federal
Information Systems: A Security Life Cycle Approach, that will ensure
management of system-related security risks is consistent with the Commission’s
mission/business objectives and overall risk strategy.

Recommendation 3:

The Office of Information Technology should update its risk management policy
to include language regarding developing a comprehensive governance structure
and ensure management of system-related security risks is consistent with the
Commission’s mission/business objectives and overall risk strategy.

Recommendation 4:

The Office of Information Technology should develop and implement a formal
risk management procedure that identifies an acceptable process for evaluating
system risk is consistent with the Commission’s mission/business objectives and
overall risk strategy.

Recommendation 5:

The Office of Information Technology should develop and implement formal
policy that addresses tailoring baseline security controls sets.




2011 Annual FISMA Executive Summary Report                           February 2, 2012
Report No. 501
                                    Page 27
                            REDACTED PUBLIC VERSION
                                                                      Appendix IV


Recommendation 6:

The Office of Information Technology should determine whether it should perform
the tailoring process at the organization level for all information systems (either
as the required tailored baseline or as the starting point for system-specific
tailoring), at the individual information system level, or by using a combination of
organization-level and system-specific approaches.

Recommendation 7:

The Office of Information Technology should tailor a baseline security controls
set (with rationale) for applicable systems in accordance with the guidance in
National Institute of Standards and Technology, Guide for Applying the Risk
Management Framework to Federal Information Systems: A Security Life Cycle
Approach, and National Institute of Standards and Technology, Recommended
Security Controls for Federal Information Systems and Organizations.

Recommendation 8:

The Office of Information Technology should review and update its configuration
management policy and ensure that it complies with the Federal Information
Security Management Act requirements, the guidelines specified in National
Institute of Standards and Technology, Recommended Security Controls for
Federal Information Systems and Organizations, and its internal requirements.

Recommendation 9:

The Office of Information Technology should review and document its current
standard baseline configuration, including identification of approved deviations
and exceptions to the standard.

Recommendation 10:

The Office of Information Technology should conduct compliance scans of its
information technology devices, according to the organizationally defined
frequency in the policy and procedures, to ensure that all devices are configured
as required by the Office of Information Technology’s configuration management
policy and procedures.




2011 Annual FISMA Executive Summary Report                            February 2, 2012
Report No. 501
                                    Page 28
                            REDACTED PUBLIC VERSION
                                                                   Appendix IV


Recommendation 11:

The Office of Information Technology should update its policy and include
language indicating that deviations from baseline configurations that are
identified and documented as a result of the configuration compliance scans are
properly remediated in a timely manner.

Recommendation 12:

The Office of Information Technology should provide a new date to the Office of
Management and Budget for implementing the technical solution for linking
multifactor authentication to Personal Identity Verification cards for system
authentication.

Recommendation 13:

The Office of Information Technology should complete its implementation of the
technical solution for linking multi-factor authentication to Personal Identity
Verification (PIV) cards for system authentication and require use of the PIV
cards as a second authentication factor by December 2012.




2011 Annual FISMA Executive Summary Report                          February 2, 2012
Report No. 501
                                    Page 29
                            REDACTED PUBLIC VERSION
                                                                                             Appendix V


         OIG’s Response to OMB Questionnaire

Section 1: Status of Risk Management

Background. Risk management is an essential component of a successful IT
security program and should be consistent with OMB M-11-33, FY 2011
Reporting Instructions for the Federal Information Security Management Act and
the Agency Privacy Management Act, 56 FISMA, 57 and NIST guidelines—
specifically, NIST SP 800-53. 58 NIST SP 800-37 59 also provides guidance for
applying the RMF to federal information systems. The principal goal of an IT
security program’s risk management process should be to protect the
organization and its ability to perform its mission, not just its IT assets.
Therefore, the risk management process should not be treated primarily as a
technical function carried out by the IT experts who operate and manage the IT
system, but as an essential management function of the organization.

The RMF, in accordance with NIST SP 800-37, consists of a three-tiered
approach to risk management. The RMF is intended to improve information
security and strengthen the risk management process. (See figure 1 in this
report for a graphic summary of the RMF.) Tier 1 addresses risk from an
organizational perspective through development of a comprehensive governance
structure and organization-wide risk management strategy. Tier 2 addresses risk
from a mission and business process perspective, and its activities are closely
associated with enterprise architecture and are guided by Tier 1 risk decisions.
Tier 3 addresses risk from an information system perspective and is guided by
Tier 1 and Tier 2 risk decisions. 60

Risk management is the process of identifying risk, assessing risk, and taking
steps to reduce risk to an acceptable level. The ultimate goal is to help
organizations to better manage risks throughout all levels of the organization.
The objective of performing risk management is to enable the organization to
accomplish its missions by better securing the IT systems that store, process, or
transmit organizational information.




56
   OMB M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act and
Privacy Management Act, http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-33.pdf.
57
   FISMA, Title III, Pub. L. No. 107-347, http://csrc.nist.gov/drivers/documents/FISMA-final.pdf.
58
   NIST SP 800-53, Rev. 3, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
59
   NIST SP 800-37, Rev. 1, http://csrc.nist.gov/publications/nistpubs/800-37-rev1/sp800-37-rev1-final.pdf.
60
   NIST SP 800-37, Rev. 1, p. 5, http://csrc.nist.gov/publications/nistpubs/800-37-rev1/sp800-37-rev1-
final.pdf.
2011 Annual FISMA Executive Summary Report                                                    February 2, 2012
Report No. 501
                                         Page 30
                                 REDACTED PUBLIC VERSION
                                                                                           Appendix V


A risk assessment is the process in the risk management methodology that
organizations use to identify the likelihood of a threat or vulnerability, the extent
of the potential threat, and the risk associated with an IT system.
NIST SP 800-53 lists the following controls associated with risk assessment:

     •   RA-1 Risk Assessment Policy and Procedures
     •   RA-2 Security Categorization
     •   RA-3 Risk Assessment
     •   RA-5 Vulnerability Scanning 61

A risk assessment helps to identify appropriate controls for reducing or
eliminating risk during the risk mitigation process.

Response. In response to question 1 on the OMB template, based on interviews
and reviews of C&A packages and other SEC documentation, NIT determined
that the Commission has established and is maintaining a risk management
program and that the risk management program is generally consistent with
FISMA, OMB, and NIST requirements. A certification is “[a] comprehensive
assessment of the management, operational and technical security controls in an
information system, made in support of security accreditation, to determine the
extent to which the controls are implemented correctly, operating as intended,
and producing the desired outcome with respect to meeting the security
requirements for the system.”62 An accreditation is “[t]he official management
decision given by a senior agency official to authorize operation of an information
system and to explicitly accept the risk to agency operations (including mission,
functions, image, or reputation), agency assets, or individuals, based on the
implementation of an agreed-upon set of security controls.” 63

In response to question 1.a(1), NIT found that OIT has a documented and
centrally accessible risk management policy, II
              64
                 but does not have formal risk management procedures. OIT’s
risk management policy includes the roles and responsibilities of participants.

In response to questions 1.a(2) through 1.a(4), NIT found that the current risk
management policy has not been updated since December 22, 2005, and does
not address risk from an organizational perspective or a mission and business
process perspective, as described in NIST SP 800-37. However, the risk
management policy does address risk from an information system perspective.

61
   NIST SP 800-53, Rev. 3, pp. F-92-95, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
62
   NIST SP 800-18, Rev. 1, p. 32, http://csrc.nist.gov/publications/nistpubs/800-18-Rev1/sp800-18-Rev1-
final.pdf.
63
   NIST SP 800-18, Rev. 1, p. 31, http://csrc.nist.gov/publications/nistpubs/800-18-Rev1/sp800-18-Rev1-
final.pdf.
64
   IT                            II                               , available in the OIT Policy Library,

2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                        Page 31
                                REDACTED PUBLIC VERSION
                                                                                          Appendix V


In response to question 1.a(5), NIT found that OIT categorizes information
systems in accordance with government policies.

In response to questions 1.a(6) and 1.a(7), NIT found that OIT identifies a
generic set of baseline controls that are evaluated as part of the ST&E process. 65
However, OIT has not developed any polices or procedures to define an
approach for developing a tailored set of baseline controls for each system
consistent with NIST SP 800-53. 66 In addition, OIT has not defined or
implemented a process to tailor baseline security controls for each system. OIT
conducts ST&Es based on the generic baseline set of security controls and not
the tailored set of security controls.

In response to question 1.a(8), NIT found that OIT assesses security controls for
the information systems using appropriate assessment procedures to determine
the extent to which the controls are implemented correctly, operating as
intended, and producing the desired outcome with respect to meeting the
security requirements for the system.

In response to questions 1.a(9) through 1.a(14), after review of the C&A
documentation (including SSPs and POA&Ms) , 67 NIT found that the Commission
authorizes information systems based on the level of risk and monitors
information security controls on a regular basis. The risks are appropriately
communicated to SEC officials, system owners, chief information officers, senior
information security officers, and other key SEC stakeholders.

Shown below, Table 2 contains OIG’s response to question 1, as provided by
NIT.




65
   The ST&E is the security document that contains the assessment methods and the assessment results for
the required security controls for each system. NIST SP 800-53A, Rev. 1, p. ix,
http://csrc.nist.gov/publications/nistpubs/800-53A-rev1/sp800-53A-rev1-final.pdf.
66
   NIST SP 800-53, Rev. 3, pp. 16-29, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-0 1-2010.pdf.
67
   The SSP is a “[f]ormal document that provides an overview of the security requirements for the
information system and describes the security controls in place or planned for meeting those requirements.”
The POA&M is “[a] document that identifies tasks needing to be accomplished. It details resources required
to accomplish the elements of the plan, any milestones in meeting the tasks, and scheduled completion
dates for the milestones.” NIST SP 800-18, Rev. 1, p. 37.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 32
                                REDACTED PUBLIC VERSION
                                                                                           Appendix V


Table 2: OIG Response to Question 1 From OMB Questionnaire
       ID                     Questions from OMB Questionnaire                          Response


 1.a           The Agency has established and is maintaining a risk management            Yes
               program that is consistent with FISMA requirements, OMB policy,
               and applicable NIST guidelines. Although improvement
               opportunities may have been identified by the OIG, the program
               includes the following attributes.
 1.a(1)        Documented and centrally accessible policies and procedures for            No
               risk management, including descriptions of the roles and
               responsibilities of participants in this process.
 1.a(2)        Addresses risk from an organization perspective with the                   No
               development of a comprehensive governance structure and
               organization-wide risk management strategy as described in NIST
               800-37, Rev.1
 1.a(3)        Addresses risk from a mission and business process perspective             No
               and is guided by the risk decisions at the organizational perspective,
               as described in NIST 800-37, Rev.1.
 1.a(4)        Addresses risk from an information system perspective and is               Yes
               guided by the risk decisions at the organizational perspective and
               the mission and business perspective, as described in NIST 800-37,
               Rev. 1.
 1.a(5)        Categorizes information systems in accordance with government              Yes
               policies.
 1.a(6)        Selects an appropriately tailored set of baseline security controls.       No

 1.a(7)     Implements the tailored set of baseline security controls and                 No
            describes how the controls are employed within the information
            system and its environment of operation.
 1.a(8)     Assesses the security controls using appropriate assessment                   Yes
            procedures to determine the extent to which the controls are
            implemented correctly, operating as intended, and producing the
            desired outcome with respect to meeting the security requirements
            for the system.
 1.a(9)     Authorizes information system operation based on a determination              Yes
            of the risk to organizational operations and assets, individuals, other
            organizations, and the Nation resulting from the operation of the
            information system and the decision that this risk is acceptable.
 1.a(10)    Ensures information security controls are monitored on an ongoing             Yes
            basis including assessing control effectiveness, documenting
            changes to the system or its environment of operation, conducting
            security impact analyses of the associated changes, and reporting
            the security state of the system to designated organizational
            officials.
 1.a(11)    Information system specific risks (tactical), mission/business specific       Yes
            risks and organizational level (strategic) risks are communicated to
            appropriate levels of the organization.
 1.a(12)    Senior Officials are briefed on threat activity on a regular basis by         Yes
            appropriate personnel. (e.g., CISO).
 1.a(13)    Prescribes the active involvement of information system owners and            Yes
            common control providers, chief information officers, senior
            information security officers, authorizing officials, and other roles as
            applicable in the ongoing management of information system-
            related security risks.
Source: OMB FISMA Web Portal.




2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                         Page 33
                                 REDACTED PUBLIC VERSION
                                                                                          Appendix V


Section 2: Status of Configuration Management
Background. A configuration management program consists of the activities
surrounding the maintenance of the security configuration of a system or network
in order to effectively manage risk. The program consists of patch management
and remediation of vulnerabilities, regular scans of the network for vulnerabilities,
establishment of a standard baseline configuration, full hardware and software
inventory, and a change management process.

The Federal Desktop Core Configuration (FDCC) is an OMB mandate that
requires all federal agencies to standardize the configuration (baseline) of
approximately 300 settings on every Windows computer, agencywide. The
purpose of the OMB mandate is to secure an ever-widening array of
workstations, servers, network devices, and software applications in terms of
technology-specific controls. The reason for this standardization is to strengthen
federal IT security by reducing opportunities for hackers to access and exploit
government computer systems.

Patch management is a key component in maintaining the security posture of a
system. Software vendors provide patches and updates to remediate security
vulnerabilities identified in their software. These patches and updates are made
available through the software vendor’s website as they are released. Most
vendors have a set day for releasing patches. For example, Microsoft releases
patches and updates on the second Tuesday of each month. If a vulnerability is
considered critical, a vendor may release patches outside of its usual cycle.

NIST SP 800-53 provides guidance to government organizations on flaw
remediation, such as patching and updates, and lists the following controls
associated with configuration management:

     •   CM-1 Configuration Management Policy and Procedures
     •   CM-2 Baseline Configuration
     •   CM-3 Configuration Change Control
     •   CM-4 Security Impact Analysis
     •   CM-5 Access Restrictions for Change
     •   CM-6 Configuration Settings
     •   CM-7 Least Functionality
     •   CM-8 Information System Component Inventory
     •   CM-9 Configuration Management Plan 68

The NIST guidance recommends that organizations identify, report, and correct
information system flaws, test software updates related to flaw remediation for

68
  NIST SP 800-53, Rev. 3, pp. F-38-46, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 34
                                REDACTED PUBLIC VERSION
                                                                       Appendix V


effectiveness and potential side effects on organizational information systems
before installation, and incorporate flaw remediation into the organizational
configuration management process.

Response. In response to question 2 on the OMB template, NIT determined,
based on interviews and reviews of the patching process, that the Commission
has established and is maintaining a configuration management program. In
addition, the SEC is maintaining a configuration management program that is
generally consistent with FISMA, OMB, and NIST requirements.

In response to questions 2a(1) and 2.a(2), NIT found that OIT has a documented
IT security configuration management policy, II
                                which indicates the policy will be reviewed and
updated annually. However, NIT’s review found that the policy has not been
reviewed or updated since March 13, 2007. NIT also found that OIT has
standard baseline configuration documents that define the baseline configuration
for critical devices but that these documents have not been reviewed or updated
within the past three years. Because the baseline configuration documents have
not been reviewed, the documents are not in compliance with NIST guidelines.

In response to questions 2a(3) and 2.a(4), NIT found that OIT is not conducting
configuration compliance scans to ensure that configurations comply with the
defined baseline configurations. OIT is in the process of developing baseline
compliance templates that will be used to determine compliance with baseline
configurations. NIT also found that OIT does not have a formal policy that
identifies the process for timely remediation of scan result deviations.

In response to questions 2a(5) through 2.a(7), NIT found that secure
configuration settings are implemented and that any deviations from FDCC
baseline settings were documented and reported to NIST. Also, after watching a
demonstration of the patch process and reviewing provided documentation, NIT
concluded that OIT is adequately applying patches in a timely and secure
manner.

Shown below, Table 3 contains OIG’s response to question 2, as provided by
NIT.




69
  See IT                                                       available in the OIT
Policy Library,
2011 Annual FISMA Executive Summary Report                            February 2, 2012
Report No. 501
                                    Page 35
                            REDACTED PUBLIC VERSION
                                                                                         Appendix V


Table 3: OIG Response to Question 2 From OMB Questionnaire
       ID                  Questions from OMB Questionnaire                          Response

 2.a            The Agency has established and is maintaining a security                Yes
                configuration management program that is consistent with
                FISMA requirements, OMB policy, and applicable NIST
                guidelines. Although improvement opportunities may have
                been identified by the OIG, the program includes the
                following attributes:
 2.a(1)         Documented policies and procedures for configuration                     No
                management.
 2.a(2)         Standard baseline configurations defined.                                No
 2.a(3)         Assessing for compliance with baseline configurations.                   No
 2.a(4)         Process for timely, as specified in agency policy or                     No
                standards, remediation of scan result deviations.
 2.a(5)         For Windows-based components, FDCC/USGCB secure                         Yes
                configuration settings fully implemented and any deviations
                from FDCC/USGCB baseline settings fully documented
 2.a(6)         Documented proposed or actual changes to hardware and                   Yes
                software configurations.
 2.a(7)         Process for timely and secure installation of software                  Yes
                patches.
Source: OMB FISMA Web Portal.


Section 3: Status of Incident Response and
Reporting
Background. Incident response is the documented (through policies and
procedures) and organized approach to addressing and managing the aftermath
of a security breach or attack, also known as an incident. Incidents may include
lost or stolen assets, such as laptops and Blackberry devices, or the compromise
of an organization’s system resulting, for example, from unauthorized access or a
computer virus. NIST SP 800-53 lists the following controls associated with
incident response:

     •      IR-1 Incident Response Policy and Procedures
     •      IR-2 Incident Response Training
     •      IR-3 Incident Response Testing and Exercises
     •      IR-4 Incident Handling
     •      IR-5 Incident Monitoring
     •      IR-6 Incident Reporting
     •      IR-7 Incident Response Assistance
     •      IR-8 Incident Response Plan 70



70
  NIST SP 800-53, Rev. 3, pp. F-61–F-65, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                       Page 36
                               REDACTED PUBLIC VERSION
                                                                                        Appendix V


The goal of incident response is to handle a situation in a way that limits damage
and reduces recovery time and cost. Organizations develop an incident
response plan to include policies that define, in specific terms, what constitutes
an incident and to provide a step-by-step process, based on the type and
severity of the incident, to be followed when an incident occurs. NIST SP 800-
61, Computer Security Incident Handling Guide, recommends that an incident
response plan address the following elements:

     •   Mission
     •   Strategies and goals
     •   Senior management approval
     •   Organizational approach to incident response
     •   How the incident response team will communicate with the rest of
         the organization
     •   Metrics for measuring the incident response capability
     •   Roadmap for maturing the incident response capability
     •   How the program fits into the overall organization 71

In addition, organizations should have a designated computer incident response
team consisting of carefully selected members that may include, in addition to
security and general IT staff, representatives from legal, human resources, and
public relations departments. The team’s roles and responsibilities are
documented, defined, and communicated thoroughly. 72

Response. In response to question 3 on the OMB template, NIT determined,
based on interviews and reviews of documentation, that the Commission has
established and is maintaining an incident response and reporting program that
is generally consistent with FISMA, OMB, and NIST requirements.

In response to question 3a(1), NIT found that OIT has documented policies and
procedures for detecting, responding to, and reporting incidents. The policies
indicate that they will be reviewed and updated annually. However, our review
found that the
           has not been reviewed or updated since August 9, 2007, and that the
                                          has not been updated since March
2007. Therefore, NIT determined the documentation does not comply with NIST
guidelines. In addition, neither document has not been updated in accordance
with the SEC-defined frequency of three years specified in the SEC IT Security
                                    73



71
   NIST SP 800-61, Rev. 1, Computer Security Incident Handling Guide (March 2008), pp. 2-4,
http://csrc.nist.gov/publications/nistpubs/800-61-rev1/SP800-61rev1.pdf.
72
   NIST SP 800-61, Rev. 1, Computer Security Incident Handling Guide (March 2008), pp. 2-12,
http://csrc.nist.gov/publications/nistpubs/800-61-rev1/SP800-61rev1.pdf.
73
   IT Security                                                                     available in the OIT
Policy Library,
2011 Annual FISMA Executive Summary Report                                              February 2, 2012
Report No. 501
                                       Page 37
                               REDACTED PUBLIC VERSION
                                                                                            Appendix V


In response to question 3.a(2), NIT reviewed incident reports and found that they
contain comprehensive analysis, validation, and documentation of incidents at
the SEC.

In response to question 3.a(4), NIT reviewed the
            and determined that OIT specifies timeframes for reporting applicable
incidents to US-CERT. 74

In response to questions 3.a(5) and 3.a(6), NIT concluded that OIT responds to
and resolves incidents in a timely manner, is capable of tracking and managing
risks in a virtual/cloud environment, and is capable of correlating incidents.

Table 4 contains OIG’s response to question 3, as provided by NIT.

Table 4: OIG Response to Question 3 From OMB Questionnaire
       ID                       Questions from OMB Questionnaire                        Response


 3.a            The Agency has established and is maintaining an incident                  Yes
                response and reporting program that is consistent with FISMA
                requirements, OMB policy, and applicable NIST guidelines.
                Although improvement opportunities may have been identified by
                the OIG, the program includes the following attributes:
 3.a(1)         Documented policies and procedures for detecting, responding to             No
                and reporting incidents.
 3.a(2)         Comprehensive analysis, validation and documentation of incidents.         Yes
 3.a(3)         When applicable, reports to US-CERT within established                     Yes
                timeframes.
 3.a(4)         When applicable, reports to law enforcement within established             Yes
                timeframes.
 3.a(5)         Responds to and resolves incidents in a timely manner, as specified        Yes
                in agency policy or standards, to minimize further damage.
 3.a(6)         Is capable of tracking and managing risks in a virtual/cloud               Yes
                environment, if applicable.
 3.a(7)         Is capable of correlating incidents.                                       Yes
Source:     OMB FISMA Web Portal.


Section 4: Status of Security Training Program
Background. NIST SP 800-16, Information Technology Security Training
Requirements: A Role and Performance-Based Model, provides guidance for
designing a role-based training program. 75

Federal agencies and organizations cannot protect the integrity, confidentiality,
and availability of information in today’s highly networked systems environment
without ensuring that each person involved understands his or her roles and

74
   See                                                                   , available in the OIT Policy
Library,
75
   NIST SP 800-16, Information Technology Security Training Requirements: A Role and Performance-
Based Model, http://csrc.nist.gov/publications/nistpubs/800-16/800-16.pdf.
2011 Annual FISMA Executive Summary Report                                                   February 2, 2012
Report No. 501
                                          Page 38
                                  REDACTED PUBLIC VERSION
                                                                                           Appendix V


responsibilities and is adequately trained to perform them. NIST SP 800-53 lists
the following controls associated with security awareness training:

        •    AT-1 Security Awareness and Training Policy and Procedures
        •    AT-2 Security Awareness
        •    AT-3 Security Training
        •    AT-4 Security Training Records
        •    AT-5 Contacts with Security Groups and Associations76

Security awareness and training policies and procedures can be developed for
the security program in general and, when required, for a particular information
system.

Response. In response to question 4 on the OMB template, NIT determined,
based on interviews and reviews of documentation, that the SEC has established
and is maintaining a security training program that is generally consistent with
FISMA, OMB, and NIST requirements.

In response to question 4.a(1), NIST found OIT has policies and procedures for
security awareness training. The document containing the policies and
procedures, IT Security
indicates that it will be reviewed and updated annually, but it was last updated on
December 29, 2005. 77

In response to questions 4.a(2) and 4.a(3), NIT found that the Commission has
specialized training modules based on IT security roles and responsibilities.

In response to questions 4.a(4) and 4.a(5), NIT found that the Commission has
conducted security awareness for its personnel, including employees,
contractors, and other agency users. In addition, the identification and tracking
of the status of specialized training for all personnel are formally documented.

Table 5 contains OIG’s response to question 4, as provided by NIT.




76
   NIST SP 800-53, Rev. 3, pp. F-21-23, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
77
   IT Security                                                                        available in the OIT
Policy Library,
2011 Annual FISMA Executive Summary Report                                                  February 2, 2012
Report No. 501
                                        Page 39
                                REDACTED PUBLIC VERSION
                                                                                        Appendix V


 Table 5: OIG Response to Question 4 From OMB Questionnaire
        ID                   Questions from OMB Questionnaire                        Response

  4.a            The Agency has established and is maintaining a security              Yes
                 training program that is consistent with FISMA requirements,
                 OMB policy, and applicable NIST guidelines. Although
                 improvement opportunities may have been identified by the
                 OIG, the program includes the following attributes:
  4.a(1)         Documented policies and procedures for security awareness             No
                 training.
  4.a(2)         Documented policies and procedures for specialized training           Yes
                 for users with significant information security responsibilities.
  4.a(3)         Security training content based on the organization and roles,        Yes
                 as specified in agency policy or standards.
  4.a(4)         Identification and tracking of the status of security awareness       Yes
                 training for all personnel (including employees, contractors,
                 and other agency users) with access privileges that require
                 security awareness training.
 Source: OMB FISMA Web Portal.


Section 5: Status of POA&M Report
Background. The POA&M is a key document in a C&A package. It is used to
document identified weaknesses and vulnerabilities discovered through security
control assessments, security impact analyses, risk assessments, and
continuous monitoring activities. A POA&M document should contain information
on the system, the identified vulnerability, severity and risk level of the
vulnerability, applicable control family based on NIST SP 800-53, recommended
remediation and timeline, and responsible party or organization for mitigating the
weakness or vulnerability. NIST SP 800-53 includes the following specific
guidance related to POA&Ms:

Control—Certification and Accreditation

             •   CA-5 Plan of Action and Milestones

                 The organization:

             a. Develops a plan of action and milestones for the information
                system to document the organization’s planned remedial actions
                to correct weaknesses or deficiencies noted during the
                assessment of the security controls and to reduce or eliminate
                known vulnerabilities in the system; and
             b. Updates existing plan of action and milestones [Assignment:
                organization-defined frequency] based on the findings from



2011 Annual FISMA Executive Summary Report                                              February 2, 2012
Report No. 501
                                         Page 40
                                 REDACTED PUBLIC VERSION
                                                                                             Appendix V


             security controls assessments, security impact analyses, and
             continuous monitoring activities. 78

Response. In response to question 5 on the OMB template, NIT determined,
based on interviews and reviews of documentation, that the SEC has established
and is maintaining a POA&M management program that is generally consistent
with FISMA, OMB, and NIST requirements.

In response to 5.a(1), NIT found OIT has documented policies and procedures
for managing IT security weaknesses discovered during security control
assessments and required remediation. OIT has developed IT Security
                                               , which addresses POA&M
management and remediation. Although the policy indicates that it will be
reviewed annually, 80 NIT found that it has not been reviewed since June 2005.

In response to questions 5.a(2) through 5.a(4), NIT confirmed that OIT is
effectively tracking, prioritizing, and remediating weaknesses across the various
systems in accordance with the remediation dates specified in the POA&M
documentation.

In response to questions 5.a(5) and 5.a(6), NIT found that OIT has provided the
appropriate resources for correcting the weaknesses and that the progress of the
remediation is reported to the appropriate SEC officials on a regular basis.

Table 6 contains OIG’s response to question 5, as provided by NIT.




78
   NIST SP 800-53, Rev. 3, pp. F-35, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
79
   IT Security                                                                available in the OIT Policy
Library,
80
   IT Security
2011 Annual FISMA Executive Summary Report                                                    February 2, 2012
Report No. 501
                                         Page 41
                                 REDACTED PUBLIC VERSION
                                                                                   Appendix V


Table 6: OIG Response to Question 5 From OMB Questionnaire
       ID                 Questions from OMB Questionnaire                      Response

 5.a           The Agency has established and is maintaining a POA&M              Yes
               program that is consistent with FISMA requirements, OMB
               policy, and applicable NIST guidelines and tracks and
               monitors known information security weaknesses. Although
               improvement opportunities may have been identified by the
               OIG, the program includes the following attributes:
 5.a(1)        Documented policies and procedures for managing IT                 No
               security weaknesses discovered during security control
               assessments and requiring remediation.
 5.a(2)        Tracks, prioritizes and remediates weaknesses.                     Yes
 5.a(3)        Ensures remediation plans are effective for correcting             Yes
               weaknesses.
 5.a(4)        Establishes and adheres to milestone remediation dates.            Yes
 5.a(5)        Ensures resources are provided for correcting weaknesses.          Yes
 5.a(6)        Program officials and contractors report progress on               Yes
               remediation to CIO on a regular basis, at least quarterly, and
               the CIO centrally tracks, maintains, and independently
               reviews/validates the POA&M activities at least quarterly.
Source: OMB FISMA Web Portal.


Section 6: Status of Remote Access Management
Remote access is the ability to access a computer or a network from a remote
location. Most commonly this type of access is used by telecommuters working
from home, personnel on travel, consultants and contractors, and others who are
not permanently based at a facility. NIST SP 800-53 includes the following
guidance pertaining to remote access:

Control—Access Control

   •        AC-17 Remote Access

   The organization:

   a. Documents allowed methods of remote access to the information
      system;
   b. Establishes usage restrictions and implementation guidance for
      each allowed remote access method;
   c. Monitors for unauthorized remote access to the information system;
   d. Authorizes remote access to the information system prior to
      connection; and




2011 Annual FISMA Executive Summary Report                                         February 2, 2012
Report No. 501
                                       Page 42
                               REDACTED PUBLIC VERSION
                                                                                              Appendix V


     e. Enforces requirements for remote connections to the information
        system. 81

Remote access is any access to an organization’s information system by a user
communicating through an external network (e.g., the Internet). Remote access
requires strong authentication for security purposes and therefore should require
multi-factor authentication. Multi-factor identification consists of a combination of
a password, passcode from a secure token, a user name, and personal
identification number (PIN) to establish connection to the network, followed by
the user’s account domain user name and password to access applications or
workstations.

Response. In response to question 6 on the OMB template, NIT determined,
based on interviews and reviews of documentation, that the SEC has established
and is maintaining a remote access management program that is generally
consistent with FISMA, OMB, and NIST requirements.

In response to question 6.a(1), NIT found that OIT has documented policies and
procedures for authorizing, monitoring, and controlling the following methods of
remote access:

            OIT has developed policies and procedures that address remote
access. However, three of the policies have not been reviewed or updated since
2002, one has not been reviewed or updated since 2005, and one has not been
reviewed or updated since 2006. Therefore, NIT determined that the documents
are not in full compliance with NIST guidelines.

In response to questions 6.a(2) and 6.a(3), NIT found that the Commission’s
remote access infrastructure is located in a secure demilitarized zone 86 and that
all users must first be authenticated for remote access.

In response to questions 6.a(4) through 6.a(6), NIT found that a new user must
have an OIT network account and an RSA token to use the Commission’s
remote access, both which must be authorized by the appropriate OIT manager
for employees or by the Contracting Officer’s Technical Representative for
contractors. The methods used for remote access meet the encryption



81
   NIST SP 800-53, Rev. 3, p. F-14, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
82
   A                              client is              the               which is a             that
                                                   such as
         allows users to                                   from                                .
84
          provides users device              for
85
                                 s the                 used by the SEC.          allows

  A demilitarized zone is firewall configuration that adds an extra layer of security for information systems.
2011 Annual FISMA Executive Summary Report                                                      February 2, 2012
Report No. 501
                                         Page 43
                                 REDACTED PUBLIC VERSION
                                                                                           Appendix V

requirements specified in NIST SP 800-63, version 1.0.2, Electronic
Authentication Guide 87 and are properly implemented.

Shown below, Table 7 contains OIG’s response to question 6, as provided by
NIT.

     Table 7: OIG Response to Question 6 From OMB Questionnaire
           ID                   Questions from OMB Questionnaire                        Response

     6.a            The Agency has established and is maintaining a remote                Yes
                    access program that is consistent with FISMA requirements,
                    OMB policy, and applicable NIST guidelines. Although
                    improvement opportunities may have been identified by the
                    OIG, the program includes the following attributes:

     6.a(1)         Documented policies and procedures for authorizing,                   No
                    monitoring, and controlling all methods of remote access.
     6.a(2)         Protects against unauthorized connections or subversion of            Yes
                    authorized connections.
     6.a(3)         Users are uniquely identified and authenticated for all access.       Yes
     6.a(4)         If applicable, multi-factor authentication is required for remote     Yes
                    access.
     6.a(5)         Authentication mechanisms meet NIST Special Publication               Yes
                    800-63 guidance on remote electronic authentication,
                    including strength mechanisms.
     6.a(6)         Defines and implements encryption requirements for                    Yes
                    information transmitted across public networks.
     6.a(7)         Remote access sessions, in accordance to OMB M-07-16,                 Yes
                    are timed-out after 30 minutes of inactivity after which re-
                    authentication are required.
 Source: OMB FISMA Web Portal.


Section 7: Status of Identity and Access
Management
Background. Identity and access management refers to how personnel are
identified and authorized across computer networks (logical access) and facilities
(physical access). It covers issues such as how users are given an identity, the
protection of that identity, and the technologies supporting that protection (e.g.,
network protocols, digital certificates, passwords). NIST SP 800-53 lists the
following controls pertaining to identity and access management:

Control—Identification and Authentication

      •         IA-2 Identification and Authentication (Organizational Users) 88
87
  NIST SP 800-63, version 1.0.2, Electronic Authentication Guide (Apr. 2006).
88
  NIST SP 800-53, Rev. 3, pp. F-54–F-55, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                February 2, 2012
Report No. 501
                                            Page 44
                                    REDACTED PUBLIC VERSION
                                                                                              Appendix V


Control—Access Management

     •   AC-2 Account Management
     •   AC-3 Access Enforcement
     •   AC-5 Separation of Duties 89

ID badges and cardkeys are most commonly used for physical access, although
biometrics may also be used. 90 Badges generally have a photograph of an
individual and his or her location of employment, as well as an assigned serial
number that is entered into the access system with the name of the assignee.
The badge is scanned into a reader that authorizes and records the person’s
entry, and sometimes exit, into a facility. The access badges can also be
programmed based on the individuals job function. For example, access to a
data center or secure operations center would be granted only to individuals who
work in that area.

For logical access, users are given a unique identifier, usually their first initial and
last name, that they will use to access computers, networks, and applications
appropriate to their role in the organization. For both logical and physical access,
organizations develop their own processes and procedures to communicate to
security and network operations the level of access an individual requires. This
communication is usually handled through an electronic request or a form
generated by the individual’s supervisor.

In August 2004, HSPD-12 was published to establish consistent identity and
access controls throughout the federal government. This directive was a result of
inconsistent identity management throughout federal agencies and the need to
provide secure and reliable forms of identification for physical and logical
access. 91

Response. In response to question 7 on the OMB template, NIT found, based
on interviews and reviews of documentation, that the SEC has established and is
maintaining an identity and access management program that is generally
consistent with FISMA requirements, OMB policy, and applicable NIST
guidelines and that identifies users and network devices. NIT found that OIT has
developed policies and procedures that address account and identity
management.



89
   NIST SP 800-53, Rev. 3, pp. F-3–F-9, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
90
   A “biometric” is defined as “[a] measurable, physical characteristic or personal behavioral trait used to
recognize the identity, or verify the claimed identity, of an Applicant. Facial images, fingerprints, and iris
scan samples are all examples of biometrics.” FIPS 201-1, p. 70,
http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
91
   HSPD-12, para. 3, http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm#1.
2011 Annual FISMA Executive Summary Report                                                      February 2, 2012
Report No. 501
                                         Page 45
                                 REDACTED PUBLIC VERSION
                                                                                 Appendix V


In response to question 7.a(1), NIT found that OIT has developed policies and
procedures that address account and identity management.
                                                                       is currently
in draft form.                                was last updated on April 6, 2006.
                                                 , has not been updated since July
9, 2008. Each of these policies indicates that it will be reviewed annually.

In response to question 7.a(2), NIT found that OIT was able to provide the
requested list of all users, including federal employees, contractors, and others
who access agency systems.

In response to questions 7.a(3) and 7.a(4), NIT found that the SEC does not use
multi-factor authentication linked to the PIV card to access information systems,
as required by HSPD-12 and in accordance with NIST recommendations. The
PIV card is used only for physical access and is not used to access SEC
systems.

In response to questions 7.a(5) and 7.a(6), NIT found that separation of duties is
sufficiently enforced. NIT also concluded that OIT keeps a record of its asset
inventory, including printers, desktops, laptops, and mobile devices.

In response to questions 7.a(7) and 7.a(8), NIT found that accounts are
terminated or deactivated once access is no longer required. No shared
accounts are used at the Commission.

Table 8 contains OIG’s response to question 7, as provided by NIT.

Table 8: OIG Response to Question 7 From OMB Questionnaire
       ID               Questions from OMB Questionnaire                      Response

 7.a        The Agency has established and is maintaining an identity           Yes
            and access management program that is consistent with
            FISMA requirements, OMB policy, and applicable NIST
            guidelines and identifies users and network devices.
            Although improvement opportunities may have been
            identified by the OIG, the program includes the following
            attributes:
 7.a(1)     Documented policies and procedures for account and identity         No
            management.
 7.a(2)     Identifies all users, including federal employees, contractors,     Yes
            and others who access Agency systems.
 7.a(3)     Identifies when special access requirements (e.g., multi-           No
            factor authentication) are necessary.
 7.a(4)     If multi-factor authentication is in use, it is linked to the       No
            Agency's PIV program where appropriate.
 7.a(5)     Ensures that the users are granted access based on needs            Yes
            and separation of duties principles.
 7.a(6)     Identifies devices that are attached to the network and             Yes

2011 Annual FISMA Executive Summary Report                                      February 2, 2012
Report No. 501
                                    Page 46
                            REDACTED PUBLIC VERSION
                                                                                          Appendix V

     ID                    Questions from OMB Questionnaire                          Response

              distinguishes these devices from users.
 7.a(7)       Ensures that accounts are terminated or deactivated once                   Yes
              access is no longer required.
 7.a(8)       Identifies and controls use of shared accounts.                            Yes
Source: OMB FISMA Web Portal.


Section 8: Status of Continuous Monitoring
Management
Background. Continuous monitoring is the process of tracking the security state
of an information system on an ongoing basis and maintaining the security
authorization for the system over time. Understanding the security state of
information systems is essential in highly dynamic environments of operation with
changing threats, vulnerabilities, technologies, and mission and business
processes. Network vulnerability assessments, intrusion detection systems
(IDS), intrusion prevention systems (IPS), and C&A are all components of
continuous monitoring programs. NIST SP 800-53 provides guidance on
continuous monitoring includes the following:

     •    CA-7—Continuous Monitoring

     The organization establishes a continuous monitoring strategy and
     implements a continuous monitoring program that includes:

     a. A configuration management process for the information system
        and its constituent components;
     b. A determination of the security impact of changes to the information
        system and environment of operation;
     c. Ongoing security control assessments in accordance with the
        organizational continuous monitoring strategy; and
     d. Reporting the security state of the information system to
        appropriate organizational officials [Assignment: organization-
        defined frequency]. 92

Successful network monitoring and incident handling includes the following key
components: assisting in rapid breach response; conducting a thorough
investigation of the system; containing the damage; gathering and analyzing
evidence; improving system practices, plans, and procedures; providing expert
reports and testimony, if necessary; and minimizing the loss of revenue.
Continuous monitoring ensures that all security-related incidents are handled in a
timely manner.
92
  NIST SP 800-53, Rev. 3, pp. F-36 - F-37 http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 47
                                REDACTED PUBLIC VERSION
                                                                                 Appendix V


Response. In response to question 8 on the OMB template, based on interviews
and reviews of documentation, the SEC has established and is maintaining an
enterprise-wide continuous monitoring program that assesses the security state
of information systems that is generally consistent with FISMA requirements,
OMB policy, and applicable NIST guidelines.

Concerning question 8.a(1), the OIT has a template for preparing continuous
monitoring reports, but has not developed policy or procedures to address
continuous monitoring.

In response to question 8.a(2), NIT found that a template for preparing
continuous monitoring reports has been developed.

Concerning question 8.a(3), NIT found that there is an approved continuous
monitoring plan, and the provided continuous monitoring reports are constructed
based on the approved continuous monitoring plan.

In response to question 8.a(4), NIT found that the continuous monitoring plan
includes a defined frequency for OIT to provide authorizing officials and other key
system officials with security status reports covering updates to security plans
and security assessment reports, as well as POA&M additions and updates, and
that OIT provides the reports with the frequency specified. NIT reviewed a
General Support System continuous monitoring overview report and found that it
covers updates to the SSPs and POA&Ms. Table 9 contains OIG’s response to
question 8, as provided by NIT.

Table 9: OIG Response to Question 8 From OMB Questionnaire
       ID               Questions from OMB Questionnaire                      Response

 8.a        The Agency has established an enterprise-wide continuous             Yes
            monitoring program that assesses the security state of
            information systems that is consistent with FISMA
            requirements, OMB policy, and applicable NIST guidelines.
            Although improvement opportunities may have been
            identified by the OIG, the program includes the following
            attributes:
 8.a(1)     Documented policies and procedures for continuous                   No
            monitoring.
 8.a(2)     Documented strategy and plans for continuous monitoring.            Yes
 8.a(3)     Ongoing assessments of security controls (system-specific,          Yes
            hybrid, and common) that have been performed based on the
            approved continuous monitoring plans.
 8.a(4)     Provides authorizing officials and other key system officials       Yes
            with security status reports covering updates to security plans
            and security assessment reports, as well as POA&M
            additions and updates with the frequency defined in the
            strategy and/or plans.
Source: OMB FISMA Web Portal.

2011 Annual FISMA Executive Summary Report                                      February 2, 2012
Report No. 501
                                    Page 48
                            REDACTED PUBLIC VERSION
                                                                                            Appendix V


Section 9: Status of Contingency Planning
Background. Contingency planning refers to development of processes,
policies, and procedures for reestablishing operations for an enterprise after a
man-made or natural disaster. Examples of issues addressed in contingency
planning are reactivation of systems, communication to personnel, alternate work
location for personnel, roles and responsibilities, and utilities
(telecommunications, power, water). NIST SP 800-53 lists the following controls
pertaining to contingency planning:

         •        CP-1 Contingency Planning Policy and Procedures
         •        CP-2 Contingency Plan
         •        CP-3 Contingency Training
         •        CP-4 Contingency Plan Testing and Exercises
         •        CP-6 Alternate Storage Site
         •        CP-7 Alternate Processing Site
         •        CP-8 Telecommunications Services
         •        CP-9 Information System Backup
         •        CP-10 Information System Recovery and Reconstitution 93

Contingency planning focuses on recovery strategies that provide a means to
restore operations quickly and effectively following a service disruption, as well
as the strategies to address disruption impacts and allowable outage times.

Response. In response to question 9 on the OMB template, NIT found, based
on interviews and reviews of documentation, that the SEC has established and is
maintaining an enterprise-wide business continuity/disaster recovery program
that is generally consistent with FISMA requirements, OMB policy, and applicable
NIST guidelines.

In response to question 9.a(1), NIT determined that OIT has documented
business continuity and disaster recovery policies and procedures. However, the
policies have not been updated since 2002, and the procedures have not been
updated since 2003.                                                     , was
last updated on August 6, 2002, and
                 was last updated on February 4, 2003.

In response to question 9.a(2), NIT found that a business impact analysis (BIA
has been executed for all major applications at the SEC. 94

93
   NIST SP 800-53, Rev. 3, pp. F-47 - F-53, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-
rev3-final_updated-errata_05-01-2010.pdf.
94
   The purpose of the BIA is to help “identify and prioritize information systems and components critical to
supporting the organization’s mission/business processes.” NIST SP 800-34, Rev. 1, p. ES-1,
http://csrc.nist.gov/publications/nistpubs/800-34-rev1/sp800-34-rev1_errata-Nov11-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                   February 2, 2012
Report No. 501
                                        Page 49
                                REDACTED PUBLIC VERSION
                                                                              Appendix V


In response to questions 9.a(3) and 9.a(4), NIT reviewed disaster recovery plans
across all the systems being evaluated and determined that those plans, along
with the documented recovery exercises, demonstrate the documentation of
division, component, and IT infrastructure recovery strategies, plans, and
procedures. Further, NIT found that OIT performs annual contingency plan
testing at the OIT level for major applications.

In response to question 9.a(5), NIT reviewed the disaster recovery plans across
multiple systems at the SEC and determined that disaster recovery plans are in
place and can be implemented when necessary.

In response to questions 9.a(6) and 9.a(7), NIT determined, after reviewing test,
training, and exercise documentation, that the development of test, training, and
exercise programs happens in the weeks prior to the exercise’s execution date.
NIT determined that annual exercises to determine the effectiveness of and to
maintain current business continuity/disaster recovery plans are performed.

Table 10 contains OIG’s response to question 9, as provided by NIT.

Table 10: OIG Response to Question 9 From OMB Questionnaire
       ID               Questions from OMB Questionnaire                   Response

 9.a        The Agency established and is maintaining an enterprise-         Yes
            wide business continuity/disaster recovery program that is
            consistent with FISMA requirements, OMB policy, and
            applicable NIST guidelines. Although improvement
            opportunities may have been identified by the OIG, the
            program includes the following attributes:
 9.a(1)     Documented business continuity and disaster recovery policy      No
            providing the authority and guidance necessary to reduce the
            impact of a disruptive event or disaster.
 9.a(2)     The agency has performed an overall Business Impact              Yes
            Analysis (BIA).
 9.a(3)     Development and documentation of division, component, and        Yes
            IT infrastructure recovery strategies, plans and procedures.
 9.a(4)     Testing of system specific contingency plans.                    Yes
 9.a(5)     The documented business continuity and disaster recovery         Yes
            plans are in place and can be implemented when necessary.
 9.a(6)     Development of test, training, and exercise (TT&E) programs.     Yes
 9.a(7)     Performance of regular ongoing testing or exercising of          Yes
            business continuity/disaster recovery plans to determine
            effectiveness and to maintain current plans.
Source: OMB FISMA Web Portal.


Section 10: Status of Contractor Systems
Background. Outside contractors play an integral role in federal government
operations. Their services range from staff augmentation to technology system
2011 Annual FISMA Executive Summary Report                                   February 2, 2012
Report No. 501
                                    Page 50
                            REDACTED PUBLIC VERSION
                                                                                           Appendix V


development, operation, and maintenance. Contractors are subject to the same
rules of conduct as employees of the organization they are brought in to support
and therefore must adhere to all of the organization’s policies and procedures.
Contractor systems deployed in the federal government are subject to a full C&A
prior to implementation and are also governed by policies and procedures of the
agency for compliance with NIST, FISMA, and OMB guidance. NIST SP 800-53
provides the following guidance pertaining to contractor systems:

     •   CA-3 Information System Connections

     The organization:

         a. Authorizes connections from the information system to other
            information systems outside of the authorization boundary
            through the use of Interconnection Security Agreements;
         b. Documents, for each connection, the interface characteristics,
            security requirements, and the nature of the information
            communicated; and
         c. Monitors the information system connections on an ongoing
            basis verifying enforcement of security requirements. 95

Response. In response to question 10 on the OMB template, NIT found, based
on interviews and reviews of documentation, that the SEC has established and is
generally maintaining a program to oversee systems operated on its behalf by
contractors or other entities, including SEC systems and services residing in the
public cloud.

In response to question 10.a(1), NIT found that OIT does not have documented
policies and procedures to address security oversight of systems operated on the
SEC's behalf by contractors or other entities.

In response to question 10.a(2), NIT found that the SEC does consistently assure
that security controls of contractor systems are effectively implemented and
comply with federal and SEC guidelines.

In response to question 10.a(3), NIT found that OIT has a complete inventory of
systems operated on the SEC's behalf by contractors or other entities, including
SEC systems and services residing in the public cloud.

In response to questions 10.a(4) and 10.a(5), NIT found, after reviewing the risk
assessment documents, that the SEC identifies the interface between
contractor/external systems and SEC-operated systems. In addition, NIT found


95
   NIST SP 800-53, Rev. 3, p. F-34, http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-
final_updated-errata_05-01-2010.pdf.
2011 Annual FISMA Executive Summary Report                                                  February 2, 2012
Report No. 501
                                        Page 51
                                REDACTED PUBLIC VERSION
                                                                           Appendix V


that OIT has the appropriate agreements in place for systems that maintain a
persistent connection to the SEC.

In response to questions 10.a(6) and 10.a(7), NIT found that the inventory of
contractor systems is updated at least annually. NIT also determined that
systems that are owned or operated by contractors or entities, including SEC
systems and services residing in the public cloud, are compliant with FISMA
requirements, OMB policy, and applicable NIST guidelines.

Table 11 contains OIG’s response to question 10, as provided by NIT.

  Table 11: OIG Response to Question 10 From OMB Questionnaire
     ID              Questions from OMB Questionnaire                  Response

   10.a      The Agency has established and maintains a program          Yes
             to oversee systems operated on its behalf by
             contractors or other entities, including Agency systems
             and services residing in the cloud external to the
             Agency. Although improvement opportunities may
             have been identified by the OIG, the program includes
             the following attributes:
   10.a(1)   Documented policies and procedures for information          No
             security oversight of systems operated on the
             Agency's behalf by contractors or other entities,
             including Agency systems and services residing in
             public cloud.
   10.a(2)   The Agency obtains sufficient assurance that security       Yes
             controls of such systems and services are effectively
             implemented and comply with federal and agency
             guidelines.
   10.a(3)   A complete inventory of systems operated on the             Yes
             Agency's behalf by contractors or other entities,
             including Agency systems and services residing in
             public cloud.
   10.a(4)   The inventory identifies interfaces between these           Yes
             systems and Agency-operated systems.
   10.a(5)   The agency requires appropriate agreements (e.g.,           Yes
             MOUs, Interconnection Security Agreements,
             contracts, etc.) for interfaces between these systems
             and those that it owns and operates.
   10.a(6)   The inventory of contractor systems is updated at least     Yes
             annually.
  Source: OMB FISMA Web Portal.




2011 Annual FISMA Executive Summary Report                                February 2, 2012
Report No. 501
                                    Page 52
                            REDACTED PUBLIC VERSION
                                                                                          Appendix V


Section 11: Status of Security Capital Planning
Background. Security capital planning is the process of applying funding toward
high-priority security investments to support the objective of implementing and
maintaining appropriate security controls for information systems. It provides a
systematic approach to selecting, managing, and evaluating IT security
investments.

Implementation of IT security within the federal government is guided by a
combination of legislation, rules and regulations, and agency-specific policies.
Specifically, FISMA requires agencies to integrate IT security into their capital
planning and enterprise architecture processes, conduct annual IT security
reviews of all programs and systems, and report the results of those reviews to
OMB. NIST SP 800-65, Integrating IT Security into the Capital Planning and
Investment Control Process, outlines the security capital planning initiatives for
federal agencies. 96

Under FISMA, an organization is responsible for establishing and maintaining a
security capital planning and investment program for information security.
Documentation for the program must include policies and procedures relative to
security capital planning and address the information security requirements as
part of the capital planning and investment process. An organization’s budget
must contain a discrete line item for information security in organizational
programming and documentation. When required, a business case/Exhibit
300/Exhibit 53 must be submitted to record the information security resources
required, and planned resources must be available for expenditure. 97

Response. In response to question 11 on the OMB template, based on
interviews and reviews of documentation, NIT found that the SEC has
established and is maintaining a security capital planning program for information
security.

In response to questions 11.a(1) and 11.a(2), NIT determined that the SEC has
documented policies and procedures to address information security in the
capital planning and investment control process. NIT found that OIT includes
information security requirements as part of the capital planning and investment
process.




96
   NIST SP 800-65, Integrating IT Security Into the Capital Planning and Investment Control Process
(January 2005), http://csrc.nist.gov/publications/nistpubs/800-65/SP-800-65-Final.pdf.
97
   The Exhibit 300 reflects an investment’s plan for capital asset management. The Exhibit 53 includes a
rollup of all Exhibit 300s and additional IT expenses from across the agency. NIST SP 800-65, p. 7,
http://csrc.nist.gov/publications/nistpubs/800-65/SP-800-65-Final.pdf.
2011 Annual FISMA Executive Summary Report                                                 February 2, 2012
Report No. 501
                                        Page 53
                                REDACTED PUBLIC VERSION
                                                                          Appendix V


In response to question 11.a(3), NIT found, after reviewing the appropriate
documentation, that OIT establishes a discrete line item for information security
in organizational programming and documentation.

In response to question 11.a(4), NIT found that OIT employs a business case to
record the information security resources required and has submitted the
required Exhibit 300 and Exhibit 53 to OMB.

In response to question 11.a(5), NIT found that security resources are available
for expenditure as planned.

Table 12 contains OIG’s response to question 11, as provided by NIT.

Table 12: OIG Response to Question 11 From OMB Questionnaire
  ID        Questions from OMB Questionnaire                            Response

  11.a      The Agency has established and maintains a security           Yes
            capital planning and investment program for information
            security. Although improvement opportunities may
            have been identified by the OIG, the program includes
            the following attributes:
  11.a(1)   Documented policies and procedures to address                 Yes
            information security in the capital planning and
            investment control process.
  11.a(2)   Includes information security requirements as part of         Yes
            the capital planning and investment process.
  11.a(3)   Establishes a discrete line item for information security     Yes
            in organizational programming and documentation.
  11.a(4)   Employs a business case/Exhibit 300/Exhibit 53 to             Yes
            record the information security resources required.
  11.a(5)   Ensures that information security resources are               Yes
            available for expenditure as planned.
Source: OMB FISMA Web Portal.




2011 Annual FISMA Executive Summary Report                                February 2, 2012
Report No. 501
                                    Page 54
                            REDACTED PUBLIC VERSION
                                                                                   Appendix VI


OIT Policies and Procedures Past Due for Updates
Table 13: OIT Policies and Procedures and Date of Last Update
                                                      Date                      Where        Number
      FISMA                                                      Defined
                Name of Policy   Policy Number        Last                    Frequency      of Years
     Controls                                                   Frequency
                                                    Updated                    Specified     Outdated
                                                    12/22/05      Annual      Specified in       5
                                                                              policy or
                                                                              procedure
                                                    3/13/07       Annual      Specified in       3
                                                                              policy or
                                                                              procedure
                                                    1/3/06        Annual      Specified in       4
                                                                              policy or
                                                                              procedure

                                                    12/30/05      Annual      Specified in       5
                                                                              policy or
                                                                              procedure
                                                    4/24/06       Annual      Specified in       4
                                                                              policy or
                                                                              procedure

                                                    4/17/06       Annual      Specified in       4
                                                                              policy or
                                                                              procedure

                                                    1/11/06       Annual      Specified in       4
                                                                              policy or
                                                                              procedure

                                                    12/30/05      Annual      Specified in       5
                                                                              policy

                                                    4/17/06       Annual      Specified in       4
                                                                              policy or
                                                                              procedure

                                                    4/17/06       Annual      Specified in       4
                                                                              policy or
                                                                              procedure
                                                    4/17/06       Annual      Specified in       4
                                                                              policy or
                                                                              procedure

                                                    12/30/05      Annual      Specified in       5
                                                                              policy or
                                                                              procedure


                                                    12/28/05      Annual      Specified in       5
                                                                              policy or
                                                                              procedure




98
  The site was accessed for the              policy on August 15, 2011.
99
  The site was accessed for the                        policies on September 14, 2011.
2011 Annual FISMA Executive Summary Report                                          February 2, 2012
Report No. 501
                                     Page 55
                             REDACTED PUBLIC VERSION
                                                                              Appendix VI

                                                    Date                     Where       Number
   FISMA                                                       Defined
               Name of Policy    Policy Number      Last                  Frequency      of Years
  Controls                                                    Frequency
                                                  Updated                  Specified     Outdated
                                                  12/29/05     Annual     Specified in       5
                                                                          policy or
                                                                          procedure
                                                  1/11/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  1/11/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  12/30/05     3 years    IT Security       3
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  12/30/05     3 years    IT Security       3
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  12/ 30/05    3 years    IT Security       3
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  1/ 3/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  1/ 3/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  12/30/05     3 years    IT Security       3
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  4/17/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  1/11/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
                                                  1/11/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy

                                             05   1/11/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy

                                                  1/11/06      3 years    IT Security       2
                                                                          Compliance
                                                                          Program
                                                                          Policy
2011 Annual FISMA Executive Summary Report                                     February 2, 2012
Report No. 501
                                    Page 56
                            REDACTED PUBLIC VERSION
                                                                                    Appendix VI

                                                        Date                      Where        Number
       FISMA                                                       Defined
                 Name of Policy    Policy Number        Last                    Frequency      of Years
      Controls                                                    Frequency
                                                       Updated                   Specified     Outdated

                                                      12/30/05      3 years     IT Security       3
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      12/30/05      3 years     IT Security       3
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      12/30/05      3 years     IT Security       3
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      4/17/06       3 years     IT Security       2
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      8/9/07        Annual      Specified in      3
                                                                                policy or
                                                                                procedure



                                                      3/6/07        3 years     IT Security       1
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      12/29/05      Annual      Specified in      3
                                                                                policy or
                                                                                procedure

                                                      6/29/05       Annual      Specified in      3
                                                                                policy or
                                                                                procedure
                                                      8/20/02       3 years     IT Security       6
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      4/16/02       3 years     IT Security       6
                                                                                Compliance
                                                                                Program
                                                                                Policy
                                                      4/16/02       Annual      Specified in      8
                                                                                policy or
                                                                                procedure
                                                      8/10/06       Annual      Specified in      4
                                                                                policy or
                                                                                procedure
                                                      12/30/05      Annual      Specified in      5
                                                                                policy or
                                                                                procedure


100
    The site was accessed for the              and reporting policies on September 13, 2011.
101
    The site was accessed for the   training policy on September 13, 2011.
102
    The site was accessed for the           on August 15, 2011.
103
    The site was accessed for the           management policies on September 19, 2011.
2011 Annual FISMA Executive Summary Report                                           February 2, 2012
Report No. 501
                                      Page 57
                              REDACTED PUBLIC VERSION
                                                                                Appendix VI

                                                    Date                      Where       Number
       FISMA                                                   Defined
                 Name of Policy   Policy Number     Last                   Frequency      of Years
      Controls                                                Frequency
                                                  Updated                   Specified     Outdated
                                                  12/30/05      3 years    IT Security        3
                                                                           Compliance
                                                                           Program
                                                                           Policy
                                                  7/9/08        Annual     Specified in      2
                                                                           policy or
                                                                           procedure
                                                  4/ 6/06       Annual     Specified in      4
                                                                           policy or
                                                                           procedure
                                                  8/6/02        Annual     Specified in      8
                                                                           policy or
                                                                           procedure
                                                  2/4/03        Annual     Specified in      7
                                                                           policy or
                                                                           procedure

Source: NIT Generated.




104
  The site was accessed for the               management policies on September 12, 2011.
105
  The site was accessed for the                policies on September 9, 2011.
2011 Annual FISMA Executive Summary Report                                      February 2, 2012
Report No. 501
                                      Page 58
                              REDACTED PUBLIC VERSION
                                                                                        Appendix VII


                             Management Comments

                                          MEMORANDUM




                                                                                 Oht
                                                                                �
 TO:               Noelle Meloney Aotlng 1",,,,,otN Genecal. Office of In,,,,,otN Genecal


 FROM:             Thorn" A. Beyee. DlceotN. Offl" 0' 'n'o=oIlon Technology



 RE:               Office of Infom1ation Technology's Response to the Office of Inspector
                     General's Draft Report, 2011 Annual FI$MA Executive Summary
                   Report, Report No, 501


 DATE:             February 2, 2012


 This memorandum is in response to the Office of Inspector General's (OIG) Draft
 Report No. 501 entitled, 2011 Annual FISMA Executive Summary Report, Thank you for
 the opportunity to review and respond 10 this report.


 OIG Recommendation:


 Recommendation 1:


 The Office of Information Technology (OIT) should develop and implement a detailed
 plan to review and update 011 security policies and procedures and to create OIT
 security policies and procedures for areas that lack formal policy and procedures.


 OIT concurs with this recommendation. We are cu"ently revising all policies and will
 develop a plan to review and update on a regular basis.

 Recommendation 2:


 The Office of Information Technology should develop a comprehensive risk
 management strategy in accordance with National lnslitute of Standards and
 Technology. Guide for Applying the Risk Management Framework to Federal
 Infom1ation Systems: A Security Life Cycle Approach that will ensure management of
 system-related security risks is conSistent with the Commission's mission/business
 objectives and overall risk strategy.


 OIT concurs with this recommendation. OIT will develop an information system-related
 security   risk    management        program   consistent   with   NIST   SP800-37   and   the
 missionlbusiness n'sk strategyestab/ished by senior Commission leadership.

 Recommendation 3:




                                                   1




2011 Annual FISMA Executive Summary Report                                              February 2, 2012
Report No. 501
                                         Page 59
                                 REDACTED PUBLIC VERSION
                                                                                     Appendix VII


The Office of Information Technology (DIT) should update its risk management policy to
include language regarding developing a comprehensive governance structure and
ensure management of system-related security risks i s consistent with the
Commission's mission/business objectives and overall risk strategy.


OIT concurs with this recommendation. OIT will update its risk management policy 10 be
consistent with N/ST SP800-37 and Ihe mission/bUsiness risk strategy established by
senior Commission leadership. While OIT Security already works with Divisions, Offices
and Regional Offices on a business impact analysis, OIT Security will document risk,
beginning with the finalization of Nationa/lnstitute of Standards and Technology (NIST)
Special Publication (SP) 800-30, Revision 1, Guide for Conducting Risk Assessments.
As of January 2, 2012, NlST anticipates finalization in June 2012.

Recommendation 4:


The Office of Information Technology should devekJp and implement a formal risk
management procedure that identifies an acceptable process for evaluating system risk
and is consistent with the Commission's missionfbusiness objectives and overall risk
strategy.


OIT concurs with this recommendation. OIT will imp/ement an information system­
relaled security risk management procedure conSistent with NIST SP800-37 and the
missionlbusiness risk strategy established by senler Commission leadership. While OIT
Security already works with Divisions, Offices and Regional Offices on a business
impact analysis, OIT Security. will document risk, beginning with Ihe finalization of
Nationa/lnstitute of Standards and Technology (NIST) Special Publication (SP) 800-30,
ReViSion 1, Guide for Conducting Risk Assessments. As of January 2, 2012, NIST
anticipates finalization in JUTlfl 2012.

Recommendation 5:

                              l
The Office of Information Tec :lnology should develop and implement formal policy that
addresses tailoring baseline secur ity controls sets.


OIT concurs with this recommendation. OIT Security is working on a comprehensive
update of its policies and procedures, including documentation to address tailoring
baseline security control sets.

Recommendation 6:


The Office of Information Technology should determine whether it should perform the
tailor ing process at the organization level for all informalion systems (either as the
required tailored baseline or as Ihe starti ng point for system-specific tailoring), at the




                                                2




2011 Annual FISMA Executive Summary Report                                            February 2, 2012
Report No. 501
                                       Page 60
                               REDACTED PUBLIC VERSION
                                                                                  Appendix VII




  individual information system tevel, or by using a combination of organization-level and
  system-specific approaches.


  OIT concurs with this recommendation. OIT Security is working on a comprehensive
  update of its policies and procedures, including documentation to address tailoring
  baseline security control sets.


  Recommendation·7:

  The Office of Information Technology should tailor a baseline security controls set (with
  rationale) for applicable systems in accordance with the guidance in National Institute of
  Standards and Technology, Guide for Applying the Risk Management Framework to
  Federa l Information Systems: A Security Life Cye/e Approach, and National Institute of
  Standards and Technology, Recommended Security Controls for Federal lnforma/ion
  Systems and Organizations.


  OIT concurs with this recommendation. OtT Security is working on a comprehensive
  update of its policies and procedures, including documentation to address tailoring
  baseline security control sets.

  Recommendation 8:

  The Office of Information Technology should review and update its configuration
  management policy and ensure that it compHes with the Federal lnfonnation Security
  Management Act requirements, the guidelines specified in National Institute of
  Standards and TeChnology, Recommended Security Controls for Federal Information
  Systems and Organizations, and its intemal requirements.


  OIT concurs with this recommendation. OIT Security is working on a comprehensive
  update of its policies and procedures, including documentation to address configuration
  management.

  Recommendation 9:

  The Office of Information Technology should review and document its current standard
  baseline configuration, including identification of approved deviations and exceptions to
  the standard.


  OIT concurs with this recommendation. OIT Security is working on a comprehensive
  update of its policies and procedures, including identification of approved deviations and
  exceptions to the standard.

  Recommendation 10:




                                               3




2011 Annual FISMA Executive Summary Report                                         February 2, 2012
Report No. 501
                                      Page 61
                              REDACTED PUBLIC VERSION
                                                                                      Appendix VII


 The Office of Information Technology should conduct compliance scans of its
 information technology devices, according to the organizationally defined frequency in
 the policy and procedures, to ensure that all devices are configured as required by the
 Office of Information Technology's configuration management policy and procedures.


 OIT concurs     with   this recommendation.     OIT Security is     working on     configuring
 automated devices to conduct compliance scans of information technology devices to
 ensure thai all are configured as required by OIT's configuration management policy
 and procedures.

 Recommendation 11:


 The Office of Information Technology should update its policy and include language
 indicating that deviations from baseline conflQurations that are identified and
 documented as a result of the configuration compliance scans are properly remediated
 in a timely manner.


 OIT concurs with this recommendation. OIT Security is working on comprehensive
 documentation of its standard baseline configuration including identification of approved
 deviations, exceptions to the standard and timely remediation of exceptions.

 Recommendation 12:


 The Office of Information Technology should provide a new date to the Office of
 Management and Budget for implementing the technical solution for linking mullifactor
 authentication to Personal Ide'llity Verification cards for system authentication.


 OIT concurs with this recommendation. SEC OIT, as many other agencies, is working
 through technical challenges for successful implementation to be able to effectively
 provide remote access using PIV authentication to the user community. OIT will reach
 out to agencies that have successfully implemented multifactor authentication using the
 Personal Identity Verification (P)V) cards.

 Recommendation 13:


 The Office of Information Technology should complete its implementation of the
 technical solution for linking multi-factor authentication to Personal Identity Verification
 (PIV) cards for system authentication and require use of the PIV cards as a second
 authentication factor by December 2012.


 OIT concurs with this recommendation. OIT is working through technical challenges for
 successful implementation to be able to effectively provide remote access va
                                                                            i PIV
 authentication to   the user community.       OIT will reach   out to agencies that have




                                                4




2011 Annual FISMA Executive Summary Report                                            February 2, 2012
Report No. 501
                                      Page 62
                              REDACTED PUBLIC VERSION
                                                      Appendix VII




2011 Annual FISMA Executive Summary Report            February 2, 2012
Report No. 501
                                    Page 63
                            REDACTED PUBLIC VERSION
                                                                 Appendix VIII


      OIG Response to Management’s Comments

We are pleased that OIT concurred with the report’s 13 recommendations. We
are also encouraged that OIT has indicated that they will initiate actions to
address the findings described in the report. We believe that OIT’s proposed
actions are responsive to the report’s findings and recommendations and their
implementation of the recommendations will further aid in strengthening the
SEC’s information security program and its systems.




2011 Annual FISMA Executive Summary Report                        February 2, 2012
Report No. 501
                                    Page 64
                            REDACTED PUBLIC VERSION
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
